Case No.:

0°l56^
_ w___3

l&M CJ)e

Supreme Court of tlie SJntteb States; filed-*
c:c 1 8 2020
Marshall Abbas Khan,

P,^>CEOFJHEnCLERK
1 I
Petitioner’

V.

Vincent Ochoa, Nancy Becker, Linda Marquis, Jane Femiano,
Steven Wolfson, Mary-Anne Miller (County Council), Christopher
Lalli Robert (Asst. District Attorney), Robert Daskas (Asst. District
Attorney), JeffreyWitthuan (Director DA Juvenile), VACA JT
(Director DA Family Support), Carol Menninger, Fred Page, Max
Carrels, Lok Merle, Shannon Russell (DMV), Julie Butler, Tom
Conner, Tom Thompson, Yvette Clayton, Neida Parker, Musarat
Khan (ex-spouse),
Respondents,

Petition for A Writ of Certiorari
In The United States Supreme Court.

PETITION FOR WRIT OF CERTIORARI

Marshall Abbas Khan
Proceeding Pro Se
6255 W Tropicana Ave # 35
Las Vegas, [NEVADA]
“Without United States”
Tel: 702-326-8349
Mak89113@vahoo.com

received
APR 2 7 2021
SUPREMEFCOURTLM

i

QUESTIONS PRESENTED

m ■

1.

Does a County/State judges have authority to preside over a case
when He/ She has a conflict of interest Does absolute immunity
apply when a judge has acted criminally under color of law and
without jurisdiction, as well as actions taken in an administrative
capacity to influence cases?

2.

Does Eleventh Amendment immunity apply when officers of the
court have violated 31 U.S. Code§ 3729 and the state has
refused to provide me any type of declaratory relief?

3.

Does Title IV-D, Section 458 of the Social Security Act violate
the United States Constitution due to the incentives it creates
forthe court to willfully violate civil rights of parties in child
custody and, support cases?

4.

Has the United States Court of Appeals for the Third Circuit
erred in basing its decision on the rulings of a Federal judge who
has clearly and willfully violated 28 U.S. Code§ 455?

5.

Can a state force a bill of attainder on a natural person in force
you into slavery?

6.

Can a judge have Immunity for their non-judicial activities who
knowingly violate civil rights

7.

If a person obtains subject matter, should they be denied access
to the Federal Courts Marshall Abbas Khan.

8.

Can a natural person be forced into a contract?

*»

ii

LIST OF PARTIES
1.

Marshall Abbas Khan, Appellant.

2.

Vincent Ochoa,

3.

Nancy Becker,

4.

Linda Marquis,

5.

Jane Femiano,

6.

Steven Wolfson,

7.

Mary-Anne Miller (County Council),

8.

Christopher Lalli Robert (Asst. District Attorney),

9.

Robert Daskas (Asst. District Attorney),

10. Brigid Jeffrey (Director DA Juvenile),
11. VACAJT (Director DA Family Support),
12. Carol Menninger,
13. Max Carrels,
14. Lok Merle,
15. Shannon Russell (DMV),
16. Julie Butler,
17. Tom Conner,
18. Tom Thompson,
19. Yvette Clayton,
20. Neida Parker,
21. Musarat Khan (ex-spouse), Defendant.

Ill

TABLE OF CONTENT
PAGE
Questions Presented.

i

List of Parties

ii

Table of Contents

iii

Table of Authorities

iv

Opinions Below.

v

Jurisdiction.

vi

Constitutional & Statutory Provisions Involved.

vii

Statement of the Case

viii

Reasons for granting the Petition,

ix

Conclusion.

x

Appendices:
Eight Judicial District Court- clerk of the court (April 29,2019)
United States Court of Appeals for the Ninth Circuit (December 11, 2020)
United States Court of Appeals for the Ninth Circuit (December 16, 2020)
Clark County- Office of the District Attorney, Family Support Division
(February 10, 2021)

IV

TABLE OF AUTHORITIES
FEDERAL CASES:
TRINSEY v. PAGLIARO
Conley v. Gibson, 355 U.S. 41, 45 -46 (1957)
Dioguardi v. Durning, 139 F.2d 774 (CA2 1944).
Haines v. Kerner, 404 U.S. 519(1972)
Conley v. Gibson, 355 U.S. 41,45 46(1957)
Baldwin County Welcome Center v. Brown 466 U.S. 147,104 S. Ct.
1723,80 L. Ed. 2d 196,52 U.S.L.W. 3751
Rabin v. Dep't of State, No. 95-4310, 1997 U.S. Dist. LEXIS 15718,
Henry Platsky, Plaintiff-appellant, v. Central Intelligence Agency.
Crandall v. Nevada, 75 US 35- Supreme court 1868,
Hale v Henkel 201 U.S. 43
Bank of commerce v. Commissioner of taxes for New York, 2 black 620
(1863)......................................................................................................................
Doe v. Irwin, 441 F Supp 1247; U.S. D.C. of Michigan, (1985)
Wallace v. Jaffree, 105 S Ct 2479; 472 US 38, (1985).
Elrod v. Bums, 96 S Ct 2673; 427 US347, (1976)
Yick Wo v. Hopkins, 118 US356, (1886)
Santosky v. Kramer, 102 S Ct 1388; 455 US 745, (1982)
Langton v. Maloney, 527 F Supp 538, D.C.Conn. (1981)
Reynold v. Baby Fold, Inc., 369 NE 2d 858; 68 Ill 2d 419.
Bell v. City of Milwaukee, 746 F 2d 1205; US Ct App 7th Cir WI, (1984)
Mabra v. Schmidt, 356 F Supp 620; DC, WI (1973).
May v. Anderson, 345 US 528,533; 73 S Ct 840,843, (1952)

V

TABLE OF AUTHORITIES (continued)

Vfc'.w-V’:* • .

PAGE
Stanley v. Illinois, 405 US 645,651; 92 S Ct 1208,(1972)
Meyer v. Nebraska, 262 or 426 US 390; 43 S Ct 625, (1923)
Quilloin v. Walcott, 98 S Ct 549; 434 US 246, 255-56,(1978)
Kelson v. Springfield, 767 F 2d 651; US Ct App 9th Cir,(1985)....
Bell v. City of Milwaukee, 746 f2d 1205, 1242-45; US Ct App 7th Cir WJ,
(1985).........................................................................................................................
Carson v. Elrod, 411 F Supp 645,649; DC E.D. VA(1976)
Franz v. U.S., 707 F 2d 582, 595-599; US Ct App (1983)
Palmore v. Sidoti, 104 S Ct 1879; 466 US429
Orr v. Orr, 99 S Ct 1102; 4340 US 268(1979)
Stanton v. Stanton, 421 US 7, 10; 95 S Ct 1373, 1376, (1975)
Pfizer v. Lord, 456 F 2d 532
Gross v. State of Illinois, 312 F 2d 257; (1963)
Griswold v. Connecticut, 381 US 479,(1965)
Fantony v. Fantony, 122 A 2d 593,(1956).
Brennan v. Brennan, 454 A 2d 901,(1982)
Blessing, supra, 520 U.S. at 343, 117 S. Ct. at 1361, 17 L. Ed. 2d at 584
Wehunt vs Ledbetter...........................................................................................

"jv ■u-’K

VI

TABLE OF AUTHORITIES (continued)
PAGE

STATUTORY PROVISIONS & RULES:
18 U.S. Code§ 241, Conspiracy against rights
18 U.S. Code § 242, Deprivation of rights under color of law
18 U.S. Code§ 286, Conspiracy to defraud the U.S. Government.
18 U.S. Code§ 287, False, fictitious or fraudulent claims
18 U.S. Code§ 371, Conspiracy to defraud the United States
18 U.S. Code § 1031, Major fraud against the United States
18 U.S. Code § 1951(a)(b)(2), Interference with comm, by threats or
violence.................................................................................................................
18 U.S. Code§ 1961(1)(A)(B)(2)(3)(4)(5), Racketeering activity.
18 U.S. Code§ 2382, Misprision of Treason.
28 U.S. Code§ 455, Disqualification of justice, judge or magistrate
judge...................................................................................................................
31 U.S. Code§ 3729(a)(l)(A)(B)(E), False claims
42 U.S. Code§ 658, Title IV-D, Section 458, Social Security Act,
Incentive payments to states..................... ...........................................

1.
IN THE SUPREME COURT OF THE UNITED STATES PETITIONFOR
WRIT OF CERTIORARI
Khan asks the Court to take judicial notice of the fact that he is without
counsel, is not schooled in the law and legal, procedures, and is not licensed
to practice law. Therefore, his pleadings must be read and construed liberally.
See Haines v. Kerner, 404 US at 520 (1980); Bir! v. Estelle, 660 F.2d 592
(1981). Further Khan believes that this court has a responsibility and legal
duty to protect any and all of Khan Constitutional and statutory rights. See
United States v. Lee, 106 US 196,220 [1882]
Appellant respectfully prays that a writ of certiorari issues to review the
judgments below
Marshall A Khan, on behalf of himself, hereby petitions for a writ of
certiorari to review the judgments of the State district family court.&. County
of Clark of Nevada, there was no fair opportunity to support my complaint or
good faith determination in either the State District Family Court, Clark
County of Nevada or the District State Court of both Courts made errors in
Issuing a default judgement Appellant complaint or proven the jurisdiction of
the court & denying defendant due process of law and refuse to provide
Jurisdiction.
OPINIONS BELOW
The State Court Decision Issuing a default judgment Petition Affidavit of
indigence entered on November 18,2013 then on or June, 2016 The State Court
made an error by issuing a degree where defendant was never served with actual
complaint. Plaintiff served someone on 1118 Freemont street Las Vegas, Nevada
Appellant Khan never reside or work on or near Freemont street Las Vegas,
Nevada. District Court Family Division issued a degree without judicial
signature or court seal that judgment without the fact in case. All proof defendant
provided to this court where disregarded. When Appellant Khan raise the
jurisdictional issue, I was threatenedto arrest and be putt in county jail under
duress I was forced to testify against myself under duress and threat of arrest,
I was forced to pay $ .00 dollars per month garnishment of Appellant pay check
it is more than 50% of Appellant monthly commission without prejudice to file
an amende d complaint. ThenonMay31,2018 the State Court made an error again
by assuming an default judgement against Appellant Then on June, 2016 higher
amount was assed against khan without his knowledge or Consent by Lind
Marquis defendant Marshall Khan Motion where denied for dismissal of default
judgement of child support of $ 1,000.00 50% custody Then on December 18, 2018
Appellant Khan reopen the case to access justice and Demanded the Jurisdiction
of the Court and Violation of Due Process of Violation taking khan steeling Khan
property & Garnish his Wages Suspended his rights to travel because khan bench
warrant still attached to his case docket need to be dismissed and removed by
family court respectfully.
JURISDICTION
Statement: No due process in my case, as the court keeps cancelling hearing
in my case.
The State District Court of for the Family Division Final Default judgment was
entered on September 18, 2013 the jurisdiction of this Court is invoked under
28 U.S. Code§ 1254(1).

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS INVOLVED:
1. Fifth Amendment, U.S. Constitution,
2. Eleventh Amendment, U.S. Constitution
3. Fourteenth Amendments Amendment, U.S. Constitution

2.
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grandjury, except in cases arising
in the land or naval forces, or in the militia, when in actual service in time
of war or public danger; nor shall any person be subject for the same offense
to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall private property be taken
for public use, without just compensation or without Due Process if Law.
THE FIFTH AMENDMENT
creates a number of rights relevant to both criminal and civil legal
proceedings. In criminal cases, the Fifth Amendment guarantees the right
to a grand jury, forbids "double jeopardy," and protects against self­
incrimination. It also requires that "due process of law" be part of any
proceeding that denies a Person’s "life, liberty or property" and requires the
government to compensate Person’s when it takes private property for public
use.
Amendment XI
the Judicial power of the United States District Court shall not be construed
to extend to any suit in, Jaw or equity, commenced or prosecuted against one of
the United States by Persons of another State,
or by any other Public Official Persons or Subjects of any Foreign State
Government.
THE ELEVENTH AMENDMENT
was the first Constitutional amendment adopted after the Bill of Rights. The
amendment was adopted following the Supreme Court's ruling in Chisholm
v. Georgia, 2 U.S. 419 (1793). In Chisholm, the Court ruled
that federal courts had the authority to hear cases in law and equity brought
by private Persons against states and that states did not enjoy sovereign
immunity from suits made by Persons of other states in federal court. Thus,
the amendment clarified Article III, Section 2 of the Constitution, which
gives diversity jurisdiction to the judiciary to hear cases "between a state
and Persons of another state."
Amendment XIV Section 1
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are Persons of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of Persons of the United States; nor
shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws. Section 2. Representatives shall be apportioned
among the several states according to their respective numbers, counting the
whole number of persons in each state, excluding Indians not taxed. But
when the right to vote at any election for the choice of electors for President
and Vice President of the United States, Representatives in Congress, the
executive and judicial officers of a state, or the members of the legislature
thereof, is denied to any of the male inhabitants of such state, being twentyone years of age, and Persons of the United States, or in any way abridged,
except for participation in rebellion, or other crime, the basis of
representation therein shall be reduced in the proportion which the number
of such male Persons shall bear to the whole number of male Persons
twenty-one years of age in such state. Section 3. No person shall be a
Senator or Representative in Congress, or elector of President and Vice
President, or hold any office, civil or military, under the United States, or
under any state, who, having previously taken an oath, as member of
Congress, or as an officer of the United States, or as a member of any state
legislature, or as an executive or judicial officer of any state, to support the
Constitution of the United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to the enemies thereof.
But Congress may by a vote of two-thirds of each House, remove such

3.
disability. Section 4. The validity of the public debt of the United States,
authorized by law, including debts incurred for payment of pensions and
bounties for services in suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any state shall assume or pay
any debt or obligation incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or emancipation of any slave; but
all such debts, obligations and claims shall be held illegal and void. Section
5. The Congress shall have power to enforce, by appropriate legislation,
the provisions of this article.
THE FOURTEENTH AMENDMENT
addresses many aspects of citizenship, the rights of Person’s and the equal
protections of the laws. Civil Rights, Due Process Clause and equal
Protection Clause are important integral rights that apply to this case.
CIVIL RIGHTS
A civil right is an enforceable right or privilege, which if interfered with by
another gives rise to an action for injury. Discrimination occurs when the
civil rights of an individual are denied or interfered with because of the
individual's membership in a particular group or class. Various jurisdictions
have enacted statutes to prevent discrimination based on a person's race,
sex, religion, age, previous condition of servitude, physical limitation,
national origin, political affiliation and in some instance’s sexual
orientation.
DUE PROCESS THE FIFTH AMENDMENT
says to the federal government that no one shall be "deprived of life,
liberty or property without due process of law." The Fourteenth
Amendment, ratified in 1868, uses the same eleven words, called the Due
Process Clause, to describe a legal obligation of all states. These words have
as their central promise an assurance that all levels of American government
must operate within the law ("legality") and provide fair procedures.
Substantive Due Process Substantive due process has been interpreted to
include the right to work in an ordinary kind of job, marry, and to raise
one's children as a parent.
Equal Protection
the Equal Protection Clause of the Fourteenth Amendment of the U.S.
Constitution prohibits states from denying any person within its territory the
equal protection of the laws. This means that a state must treat an individual
in the same manner as others in similar conditions and circumstances. The
Federal Government must do the same, but this is required by the Fifth
Amendment Due Process.
STATUTORY PROVISIONS INVOLVED:
1.
2.
3.

18 U.S. Code § 241, Conspiracy against rights
18 U.S. Code§ 242, Deprivation of rights under color of law
18 U.S. Code § 286, Conspiracy to defraud the U.S.
Government
4. 18 U.S. Code§ 287, False, fictitious or fraudulent claims
6. 18 U.S. Code§ 371, Conspiracy to defraud the United States
6. 18 U.S. Code § 1031, Major fraud against the United States
7. 18 U.S. Code § 1951(a)(b)(2), Interference with comm, by
threats or violence
8. 18 U.S. Code§ 1961(1)(A)(B)(2)(3)(4)(5), Racketeering activity
9. 18 U.S. Code§ 2382, Misprision of Treason
10. 28 U.S. Code § 455, Disqualification of justice, judge or
magistrate judge
11. 31 U.S. Code§ 3729(a)(l)(A)(B)(E), False claims.
12. 42 .U.S. Code§ 658, Title IV-D, Section 458, Social Security
Act, Incentive payments to states

4.
18 U.S. CodeS 241
Conspiracy against rights If two or more persons conspire to injure, oppress,
threaten, or intimidate any person in any State, Territory, Commonwealth,
Possession, or District in the free exercise or enjoyment of any right or
privilege secured to him by the Constitution or laws of the United States, or
because of his having so exercised the same.

18 U.S. CodeS 242
Deprivation of rights under color of law Whoever, under color of any law,
statute, ordinance, regulation, or custom, willfully subjects any person in any
State, Territory, Commonwealth, Possession, or District to the deprivation
of any rights, privileges, or immunities secured or protected by the
Constitution or laws of the United States, or to different punishments, pains,
or penalties, on account of such person being an alien, or by reason of his
color, or race, than are prescribed for the punishment of "Persons, shall be
fined under this title or imprisoned not more than one year, or both; and if
bodily injury results from the acts committed in violation of this section or if
such acts include the use, attempted use, or threatened use of a dangerous
weapon, explosives, or fire, shall be fined under this title or imprisoned not
more than ten years, or both; and if death results from the acts committed
in violation of this section or if such acts include kidnapping or an attempt
to kidnap, aggravated sexual abuse,or an attempt to,
commit aggravated sexual abuse, or an attempt to kill, shall be fined under
this title, or imprisoned for any term of years or forlife, or both. 18 U.S. Code§
286, Conspiracy to defraud the U.S. Government Whoever enters into any
agreement, combination, or conspiracy to defraud the United States, or any
department or agency thereof, by obtaining or aiding to obtain the payment
or allowance of any false, fictitious or fraudulent claim, shall be fined under
this title or imprisoned not more than ten years, orboth.
18 U.S. CodeS 287.
False, fictitious or fraudulent claims Whoever makes or presents to any
person or officer in the civil, military, or naval serviceof the United States,
or to any department or agency thereof, any claim upon or against the United
States, or any department or agency thereof, knowing such claim to be false,
fictitious, or fraudulent, shall be imprisoned not more than five years and
shallbe subject to a fine in the amount provided in this title.
18 U.S. Code S 371.
Conspiracy to defraud the United States If two or more persons conspire
either to commuting any offense against the United States, or to defraud the
United States, or any agency thereof in any manner or for any purpose, and
one or more of such persons do any act to affect the object of the conspiracy,
each shall be fined under this title or imprisoned not more than five years, or
both.
18 U.S. CodeS 1031.
Major fraud against the United States (a) Whoever knowingly executes, or
attempts to execute, any scheme or artifice with the intent- to defraud the
United States; or to obtain money or property by means of false or fraudulent
pretenses, representations, or promises, in any grant, contract, subcontract,
subsidy, loan, guarantee, insurance, or other form of Federal assistance,
including through the Troubled Asset Relief Program, an economic stimulus,
recovery or rescue plan provided by the Government, or the Government's
purchase of any troubled asset as defendant Emergency Economic
Stabilization Act of 2008, ordinary procurement of property or services as a
prime contractor with the United States or as a subcontractor or supplier
on a contract in which there is a prime contract with the United States,
if the value of such grant, contract, subcontract, subsidy, loan, guarantee,
insurance, or other form of Federal assistance, or any constituent part
thereof, is$l,000,000or more shall, subject to the applicability of subsection,
of this section, be fined not more than $1,000,000, or imprisoned not more
than 10 years, or both, (b) The fine imposed foran offense under this section
may exceed the maximum otherwise provided by law, if such fine does not

5.
exceed $5,000,000 and- the gross loss to the Government or the gross gain to
a defendant is $500,000 or greater; or the offense involves a conscious-or
reckless risk of serious personal injury, (c) The maximum fine imposed upon a defendant for a prosecution including a prosecution with multiple counts
under this section shall not exceed $10,000,000.
(d)Nothing in this section shall preclude a court from imposing any other
sentences available under this title, including without limitation a fine up to
twice the amount of the gross loss or gross gain involved in the offense pursuant
to 18 U.S.C. Section 3571.
(e) In determining the amount of the fine, the court shall consider the factors
set forth in 18 U.S.C. Sections 3553 and 3572, and the factors set forth in the
guidelines and policy statements of the United States Sentencing
Commission, including- the need to reflect the seriousness of the offense,
including the harm or loss to the victim and the gain to the defendant; whether
the defendant previously has been fined for a similar offense;
and any other pertinent equitable considerations, (f) A prosecution of an
offense under this section may be commenced any time not later than 7 years
after the offense is committed, plus any additional time otherwise allowed
by law. (g)(1) In special circumstances and in his or her sole discretion, the
Attorney General is authorized to make payments from funds appropriated
to the Department of Justice to persons who furnish information relating to
a possible prosecution under this Section. The amount of such payment shall
not exceed $250,000.
Upon application by the Attorney General, the court may order that the
Department shall be reimbursed for a payment from acriminal fine imposed
under this Section. (2) An individual is not eligible for such payment if that
individual is an officer or employee of a Government agency Who furnishes
information or renders service in the performance of official duties; that
individual failed to furnish the information to the individual's employer
prior to furnishing it to law enforcement authorities, unless the court
determines the individual has justifiable reasons for that failure; the
furnished information is based upon public disclosure of allegations or
transactions in a criminal, civil, or administrative hearing, in a
congressional, administrative, or GAO report, hearing, audit or investigation,
or from the news media unless the person is the original source of the
information.
For the purposes of this subsection, "original source" means an individual
who has direct and independent knowledge of the information on which the
allegations are based and has voluntarily provided the information to the
Government; or that individual participated in the Violation of this Section
with respect to which such payment would be made. (3) The failure of the
Attorney General to authorize a payment shall not be subject to judicial
review, (h) Any individual who- (1) is discharged, demoted, suspended,
threatened, -harassed, or in any other manner discriminated against in the
terms and.conditions of employment by an employer because of lawful acts
done by the employee on behalf of the employee or others in furtherance of a
prosecution under this Section (including investigation for, initiation of,
testimony for, or assistance in such prosecution), and (2) was not a participant
in the unlawful activity that is the subject of said prosecution, may, in a civil
action, obtain all relief necessary to make such individual whole. Such relief
shall include reinstatement with the same seniority status such individual
would have had but for the discrimination, 2 times the amount of back pay,
interest on the back pay, and compensation for anyspecial damages sustained
as a result of the discrimination, including litigation costs and reasonable
attorney's fees.
18 U.S. CodeS I951(aKb)r2).
Interference with comm, by threats or violence Whoever in any way or
degree obstructs, delays, or affects commerce or the movement of any article
or commodity in commerce, by robbery or extortion or attempts or conspiracy
to do, or commits or threatens physical violence to any person or property in

r~

6.
furtherance of a plan or purpose to do anything in violation of this section
shall be fined under this title or imprisoned not more than twenty years, or
both. As used in this section(1) The term "robbery" means the unlawful taking or obtaining of personal
property from the person or in the presence of another, against his will, by
means of actual or threatened force, or violence, or fear of injury, immediate
or future, to his person or property, or property in his custody or possession, or
the person or property of a relative or member of his family or of anyone in his
company at the time of the taking or, obtaining. The term "extortion" means
the obtaining of property from another, with or without his consent, induced
by wrongful use of actual or threatened force, violence, or fear, or under color
of official right. The term "commerce" means commerce within the District of
Columbia, or any Territory or Possession of the United States; all commerce
between any point in a State, Territory, Possession, or the District of
Columbia and any point outside thereof; all commerce between points within
the same State through any place outside such State; and all other commerce
over which the United States has jurisdiction.
18 U.S. Code S 1961(lMAHBM2M8M4M5h Racketeering activity 01
"racketeering activity" means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene
matter, or dealing in a controlled substance or listed chemical (as defined
in section 102 of the Controlled Substances Act), which is chargeable under
State law and punishable by imprisonment for more than one year; (B) any
act which is indictable under any of the following provisions of title 18,
United States Code: Section 201 (relating to bribery), section 224 (relating to
sports bribery), sections 471, 472, and 473 (relating to counterfeiting), section
659 (relating to theft from interstate shipment) if the act indictable under
section 659 is felonious, section 664 (relating to embezzlement from pension and
welfare funds), sections 891-894 (relating to extortionate credit transactions),
section 1028 (relating to fraud and related activity in connection with
identification documents), section 1029 (relating to fraud and related
activity in connection with access devices), section 1084 (relating to the
transmission of gambling information), section 1341 (relating to mail fraud),
section 1343 (relating to wire fraud), section 1344 (relating to financial
institution fraud), section 1351 (relating to fraud in foreign labor
contracting), section 1425 (relating to the procurement of citizenship or
nationalization unlawfully), section 1426 (relating to the reproduction of
naturalization or citizenship papers), section 1427 (relating to the sale of
naturalization or citizenship papers), sections 1461-1465 (relating to obscene
matter), Section 1503 (relating to obstruction of justice), Section 1510 (relating
to obstruction of criminal investigations),Section 1511 (relating to the
obstruction of State or local law enforcement), section 1512 (relating to
tampering with a witness, victim, or an informant), Section 1513 (relating to
retaliating against a witness, victim, or an informant), Section 1542 (relating
to false statement in application and use, of passport), Section 1543 (relating
to forgery or false use of passport), Section 1544 (relating to misuse of
passport), section 1546
(relating to fraud and misuse of visas, permits, and other documents),
sections 1581-1592 (relating to peonage, slavery, and trafficking in
persons)., [!] sections 1831 and 1832 (relating to economic espionage and
theft of trade secrets), Section 1951 (relating to interference with commerce,
robbery, or extortion), section 1952 (relating to racketeering),Section 1953
(relating to interstate transportation of wagering paraphernalia), Section
1954 (relating to unlawful welfare fund payments), section 1955 (relating to
the prohibition of illegal gambling businesses), Section 1956 (relating to the
laundering of monetary instruments), Section 1957 (relating to engaging in
monetary transactions in property derived from specified unlawful activity),
Section 1958 (relating to use of interstate commerce facilities in the commission
of murder-for-hire), Section 1960 (relating to illegal money transmitters),
Sections 2251, 2251A, 2252, and 2260 (relating to sexual exploitation of
children), Sections 2312 and 2313 (relating to interstate transportation of
stolen motor vehicles), Sections 2314 and 2315 (relating to interstate
transportation of stolen property), Section 2318 (relating to trafficking in
counterfeit labels for phono records, computer programs or computer
program documentation or packaging and copies of motion pictures or other

7.
audio visual works), Section 2319 (relating to criminal infringement of a
copyright), section 2319A (relating to unauthorized fixation of andtrafficking
in sound recordings and music videos of live musical performances), Section
2320 (relating to trafficking in goods or services bearing counterfeit marks), '
Section 2321 (relating to trafficking in certain motor vehicles or motor
vehicle parts),Sections 2341-2346 (relating to trafficking in contraband
cigarettes), Sections 2421-24 (relating to white slave traffic), Sections 175178 (relating to biological weapons), Sections 229-229F {relating to chemical
weapons), Section United States, the District of Columbia, the
Commonwealth of Puerto Rico, any territory or possession of the. United
States, any political subdivision, or any department, agency, or
instrumentality thereof; 'person" includes any individual or entity capable
of holding a legal or beneficial interest in property; "enterprise" includes any
individual, partnership, corporation, association, or other legal entity, and
any union or group of individuals associated in fact although not a legal
entity; 'pattern of racketeering activity" requires at least two acts of
racketeering activity, one of which occurred after the effective date of this
chapter and the last of which occurred within ten years (excluding any
period. Of imprisonment) after the Commission of a prior act of racketeering
activity;
18 U.S. CodeS 2382.
Misprision of Treason Whoever, owing allegiance to the United States and
having knowledge of the Commission of any treason against them, conceals and
does not, as soon as may be, disclose and make known the same to the
President or to some judge of the United States, or to the governor or to some
judge or justice of a particular State, is guilty of misprision of treason and
shall be fined under this title or imprisoned not more than seven years, or
both.
28 U.S. Code 8 455.
Disqualification of justice, judge or magistrate judge Any justice, judge, or
magistrate judge of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned. He
shall also disqualify himself in the following circumstances: (1) Where he has
a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding; Where in private
practice he served as lawyer in the matter in controversy, or a lawyer with
whom he previously practiced law served during such association as a lawyer
concerning the matter, or the judge or such lawyer has been a material
witness concerning it; Where he has served in governmental employment
and in such capacity participated as counsel, adviser or material witness
concerning the proceeding or expressed an opinion concerning the merits of
the particular case in controversy; He knows that he, individually or as a
fiduciary, or his spouse or minor child residing in his household, has a
financial interest in the subject matter in controversy or in a party to the
proceeding, or any other interest that could be substantially affected by the
outcome of the proceeding; He or his spouse, or a person within the third degree
of relationship to either of them, or the spouse of such a person: Is a party to
the proceeding, or an officer, director, or trustee of a party; Is acting as a
lawyer in the proceeding; Is known by the judge to have an interest that
could be substantially affected by the outcome of the proceeding; Is to the
judge's knowledge likely to be a material witness in the proceeding, (c) A
judge should inform himself about his personal and fiduciary financial
interests, and make a reasonable effort to inform himself about the personal
financial interests of his spouse and minor children residing in his household,
(d) For the purposes of this Section the following words or phrases shall have
the meaning indicated: 'proceeding” includes pre-trial, trial, appellate
review, or other stages of litigation; the degree of relationship is calculated
according to the civil law system; "fiduciary" includes such relationships as
executor, administrator, trustee, and guardian; "financial interest" means
ownership of a legal or equitable interest, however small, or a relationship
as director, adviser, or other active participant in the affairs of a party,
except that: Ownership in a mutual or common investment fund that holds
securities is not a "financial interest" in such securities unless the judge
participates in the "management of the fund; An office in an educational,

N**'

8.
religious, charitable, fraternal, or civic organization is not a "financial
interest" in securities held by the organization; The proprietary interest of a
policyholder in a mutual insurance company, of a depositor in a mutual
savings association, or a similar, proprietary interest, is a "financial interest"
in the organization only if the outcome of the proceeding could substantially
affect the value of the interest; Ownership of government securities is a
"financial interest" in the issuer only if the outcome of the proceeding could
substantially affect the value of the securities, (e) No justice, judge, or
magistrate judge shall accept from the parties to the proceeding a waiver of
any ground for disqualification enumerated in subsection (b). Where the
ground for disqualification arises only under subsection (a), waiver may be
accepted provided it is preceded by a full disclosure on the record of the basis
for disqualification, (f) Notwithstanding the preceding provisions of this
Section,, if any justice, judge, magistrate judge, or bankruptcy judge to whom
a matter has been assigned would be disqualified, after substantial judicial
time has been devoted to the matter, because of the appearance or discovery,
after the matter was assigned to him or her, that he or she individually or
as a fiduciary, or his or her spouse or minor child residing in his or her
household, has a financial interest in a party (other than an interest that
could be substantially affected by the outcome), disqualification is not
required if the justice,judge, magistrate judge, bankruptcy judge, spouse or
minor child, as the case maybe, divests himself or herself of the interest that
provides the grounds for the disqualification.
31 U.S. CodeS 3729(a)flMAMB)IE). False claims riri Liability for
Certain Acts. -(1)
In general Subject to paragraph (2), any person who- knowingly presents, or
causes to be presented, a false or fraudulent claim for payment or approval;
knowingly makes, uses, or causes to be made or used, a false, record or
statement material to a false or fraudulent claim; conspires to commit a
violation of subparagraph (A), (B), (D), (E), (F), or (G); has possession,
custody, or control of property or money used, or to be used, by the
Government and knowingly delivers, or causes to be delivered, less than all
of that money or property; (E) is authorized to make or
deliver a document certifying receipt of property used, or to be used, by the
Government and, intending to defraud the Government, makes or delivers
the receipt without completely knowing that the information on the receipt
is true;
42 U.S.C. 658. Title IV-D. Section 458. Social Security. Act.
INCENTIVE PAYMENTS TO STATE.
Title IV-D law is being challenged as Unconstitutional due to the financial
incentives it creates which have allowed for corrupt actors to proliferate and
abuse the law to wilfully deprive Persons of their constitutional right under
color of law for financial gain.

STATEMENT OF THE CASE
Marshall Khan, Appellant, has been victimized for years by a corrupt system of
judicial misconduct in the State District Family Court Clark County Nevada.
The clear conflict of interest that involves the current administrative Coram
non judice of the Family Court. Officers of the family court have perpetrated
an unconscionable scheme to criminally defraud the United States
Government and wilfully deprive person of their Constitutional rights for
the sole intent of unlawful financial gain. The Appellant named in this case
have conspired to commit fraud by and through the establishment and
enforcement of fraudulent child support orders that were created with
complete disregard of evidence and fact. The bad actors within the court have
devised this scheme to inflate the incomes of obligors which in turn would
increase the revenues available to the court through Title IV-D funding.
Establishment and enforcement tactics used have discriminated against
Appellant on the basis of his gender and disabilities, the court has
systematically deprived Petitioner of his civil rights during contempt and
child custody proceedings. Title IV-D is a law that has given officers of the

9.
court the incentive to abuse their power under color of law to cause
irreversible harm to countless individuals and families. Quite apart from the
guarantee of equal protection, if a law impinges on a fundamental right
explicitly or implicitly secured by the Constitution it is presumptively
unconstitutional. If a law has no other purpose that to chill assertion of
constitutional rights by penalizing those who choose to exercise them, it is
patently unconstitutional.
In April of 2013, I, Marshall Khan, went to mediation with my previous
lawyer Fred Page to come up with an agreement on the behalf of my divorce.
Hours passed by without an agreement being put in place due to me not
wanting to settle, and being that I had a lawyer, I felt as though my
constitutional rights are going to be protected. As the mediation prolonged
up to 5th hour, I can tell that each side was getting frustrated, but I was not
trying to get railroad by the system, unexpectantly, my lawyer told me that
he will take $750 off of what I owe him to pay my ex- wife's lawyer because
she wanted me to pay her $ 9,500 for her attorney fees and that I needed to
settle for an agreement because if we were to take it back to court, he will
then raise his price up to $ 5000 more. He also advised me that if we go to
court, the judge will give my ex-wife and her lawyer everything they asked
for, meaning child support and lawyer fees. Under fraud and duress; I
didn’t sign my name on the agreement paper, and as I look through my
receipts, I still do not see that he kept his word by taking $750 off of what I
owe him. It does not reflect anything he stated he would do, therefore, that
is fraud.
T HAVE A WITNESS
The Defendants in this case have engaged in a criminal conspiracy to
defraud the United States Government through the fraud and abuse of Title
IV-D. Section 458 of the Social Security Act.. This fact has been
made abundantly clear in the illegal activity and fraud that has been
documented in Owens’s case. The administration of the court has acted in
violationof 18 U.S. CodeS 1961 and has used threats and coercion to obtain
funds from Appellant in violation of 18 IJ.S. Code S 1951.
Title IV-D is a law that has given officers of the_ court the incentive to
abuse their power under colour of law to cause irreversible harm to
countless individuals and families.
REASONS FOR GRANTING THE PETITION
Appellant Marshall Abbas Khan complaint shouldn’t not be cancelled 4th
time proper procedure was not followed. And Marshall Abbas Khan was
never served with copy of actual complaint, Defendant ‘motion to dismiss for
failure to state a claim was denied by affidavits in depositions.
The decision is within the supreme court jurisdiction because it is certified
to be in direct conflict with decisions of other District or State Court as
Coram non judice.
The Appellant motion to dismiss for failure to state a claim unsupported by
affidavits or depositions is incomplete becauseit requests Courts to consider
facts outside the record which have not been presented in the form
required by Rules 1 2 (b) (6) and 56(c). Statements of counsel in their briefs
or argument while enlightening to the Court are not sufficient forpurposes
of granting a motion to dismiss or summary judgment. TRINSEY v.
PAGLIARO The issue now before this court is Appellant contention that the
State Court erred in cancelling hearing
pro se petition without providing proof of jurisdiction or oath of his office
when jurisdiction can be raised at any time in case. When it happens
Jurisdiction must be proven when raised by Defendant at any time in case
proceeding.
Whatever may be the limits on the scope of inquiry of courts into the internal
administration of prisons, allegations such as those asserted by. petitioner,
however in artful pleaded, are sufficient to call for the opportunity to offer

10.
supporting -evidence. We cannot say with assurance that under the
allegations of the pro se Complaint, which we hold to less stringent
standards than formal pleadings drafted by lawyers, it appears [404 U.S.
519, 521] "beyond doubt that the Appellant can prove no set of facts in
support of his claim which would entitle him to relief." Conley v. Gibson.
355 U.S. 41. 45 -4fi (1957V See DingnarHi
19441. Accordingly, although we intimate no view whatever on the merits of
petitioner's allegations, we conclude that he is entitled to an opportunity, to
offer proof. The judgment is reversed and the case is remanded for further
proceedings consistent herewith. HAINES v. KER.NER.
We now consider whether Appellant complaint states a recognizable 1983
claim. The handwritten pro se document is to be liberally.
construed. As the Court Unanimously held in Haines v. Kerner. 404 U S.
519
(1972), a prose Complaint, "however inartful pleaded," must be held to "less
stringent standards than formal pleadings drafted by lawyers" and can only
be dismissed for failure to state a claim if it appears "beyond doubt that the
plaintiff can prove no setof facts in support of his claim which would entitle

Rule 8 provides that 'pleadings shall be so construed as to do substantial
justice.' We frequently have stated that prose pleadings are to be given a
liberal construction. Baldwin County Welcome Center v. Brown 466 US.
147.104 S. Ct. 1723.80 T,. Ed. 2d 196 52TT.S T, W. 3751
The court noted that prose Appellant should be afforded "special solicitude."
Rabin v. Den't of State. No. 95-4310. 1997 IT S Dist. LEXIS 15718
"Where there are no depositions, admissions, or affidavits the court has no
facts to rely on for a summary determination." Trinsev v. Pagliaro. D C. Pa
1904. 229 F. Sunn fi47.
The State Coram non judice should have explained the correct form to the prose
Appellant so that Khan could have amended his pleadings accordingly.
Instead of simply dismissing the complaints for naming federal agencies as
the Appellant it would have been appropriate for the district Coram non
judice to explain the correct form to the pro se Appellant so that Platsky
could have amended his pleadingsaccordingly see Henry Platakv. Plaintiff-

anja£liauL-S*^£JttliaLIjQJi£lliS£Il££^2£Il£i»
EIGHTH DISTRICT FAMILY COURT FRAUD.KHAN ASK THE
COURT TO TAKE JUDICIAL NOTICE UNDER FEDERAL RULE OF
EVIDENCE 201(B) REQUIREES "FREE ACCESS" TO JUDICIAL
TRIBUNALS BY A NATURAL INDIVIDUAL WITH A CONSTITUTIONAL
RIGHT TO PETITION THE COURT SET BY "PRECEDENCE CRANDALL
V. NEVADA, 73 US 35- SUPREME COURT 1868
On September 2013, The State Court of Clark County, Nevada made an
error by issuing a degree of divorce without due process hearing Appellant
Khan requested jury trial through his attorney of record but Khan request
was just ignored through his attorney as well in family court Clark, County,
Nevada my attorney failed to introduce all the documents Khan provided
him through this divorce proceeding and forced Khan to testify against
himself.
Under federal rules of evidence 201 (b) the Family Court of was required to
waive filing fees so Appellant Khan could access the court for justice is
justified by a natural individual right to petition the court without fees
based upon precedence Crandall v. Nevada, 75 US 35- Supreme court 1868 that
the petitioner as a natural individual has a constitutional right to petition the
court for "remedy without costs"
The undersigned Marshall Abbas Khan is a natural individual who
is requiring a waiver of the filing fee to access the court under his
constitutional right to petition the court for remedy without costs
Because Undersigned Marshall Abbas Khan is The Victim in This Case

a*.

11.
"Living as we do under a common government, charged with the great
concerns of the whole Union, every Persons of the United States from the
most remote states or territories, is entitled to free access not only to the
-principal departments established at Washington, but also to its judicial
tribunals and public offices in every state in the Union. For all the great
purposes for which the federal government was formed, we are one people,
with one common country. We are all the peoples of the United States, and
as members of the same community must have the right to pass and repass
through every part of it without interruption, as freely as in our own states. And
a tax imposed by a state for entering its territories or-harbors is inconsistent
with the rights which belong to persons of other states as members of the Union
and with the objects which that Union was intended to attain. Such a power in
the states could produce nothing but discord and mutual irritation, and they
very clearly do not possess it."
The court must take judicial notice of precedence under federal rules of
evidence 201(B) "Bank of commerce v. Commissioner of taxes for New York,2
black 620 (1863) require the clerk of the court to waive filing fees to allow the
undersigned to access the court.
The Undersigned is guaranteed the right to petition the court for due process
that is Constitutionally Secured Under the 5th and 14th Amendments. Due
process of law is a Constitutional guarantee that a court fee cannot obstruct
for a remedy to an injury in fact. The filing fee is obstructing the undersigned
from accessing the court for his Constitutional right to petition the court
under the 14th amendment for equal protection of law to protect his right to
due process When -Especially visit the low tribunal court on a forced response
to a Bill of Pains and Penalties issued by the person LINDA MARQUIS &
VINCENT OCHOA) Employed by the (Family Court), employed by the
Corporate (STATE OF NEVADA) my special visitation was forced, and I was
forced into a bill of attainder, And he has denied all of my 50% custody rights
with my all 4 kids Laila Khan Malaika Khan Moiz Khan & Moeen Khan have
not been able to see my kids nor in my care Since September 18./2013 an Secret
J
Hearing in IV-D agency on September 3ra 2019 and as well as on February
26/2020 hearing was Heald without Khan knowledge & without his Consent or
his whereabout. Khan did not Receive any notice of this hearing was held
against me in Secretly not in court.
On September 03/2019 by Hearing was held in IV-D agency under
persecuting attorney ADAM HUGHES & Hearing Master JANE FEMlANO
which both are Employee of State of Nevada accessing the amount of $
64,764.88 without Khan Consent of knowledge khan was not present nor he
has knowledge of this Secret hearing.as well accessing $ 1,000.00 Dollar per
months against Khan as monthly Obligation Khan is not an Obligor. I am a
Living Breading Man has blood flowing through his veins brain & body he is
not an Obligor at all a Bench Warrant was issued by State employee JANE
FEMlANO Office without Court of Record nor Signed by Judge, Khan was
arrested detained while travelling and locked up without any Crime and
Excessive bail was in Demand of $ 1,000.00 Dollars Cash for his rerelease the
Cash Khan did not have, his family have to borrow money from her
Employer to bail out Khan who is her husband. Khan was Denied his
Medication which prescribed by his Doctor for hypertension and his Type 2
Diabetes daily dose Twice when Khan repeatedly requested his Medication to
County Jail Staff called me a terrorist & scum bag and Arresting Officer were
talked about condition of Khan health and Medication, he takes daily dose
Twice both medication where bot provided tome.
Article 1 section 9 paragraph 3 No Bill of Attainder or ex post facto
Law shall be passed
This matter is from a dissolution of the marriage the marriage ended in 2013
The parties to this case has forced Khan into a bill of attainder and has kept
him from see all for 4 kids Khan has Petition the court over the years for joint
custody. The parties to this case has deprived Khan Constitutional rights and
also property. No state has ever found Khan to be Unfit the state has Not given

12.
any remedy for Khan has exhausted every Way to petition the court for
redress this is why he is petitioning this court for help. Khan property has
been taken and his Nevada Commercial Driver License was suspended on
January, 16/2018 & 02/26/2020 till Khan paid $ 1,000.00 to department of
Nevada motor vehicle and $ 2000.00 Dollar to office of child support to be
reinstated my driving Rights.

Khan fundamental rights has been violated by depriving me for Due
Process of Law the Nevada DOR was presented bv Family Court and
DA Office Cancelling the Court hearing.
State laws vary under the "Domestic Relations Exception" giving states the
jurisdiction over divorce law. However, certain Constitutional rights will
override these as no state can make any law that takes away Constitutional
Rights of people. The rights of parents to the care, custody and nurture of
their children are of such character that it cannot be denied without
violating those fundamental principles of liberty and justice which lie at the
base of all our civil and political institutions, and such right is a fundamental
right protected by this amendment (First) and Amendments 5. 9. and 14.
Doe v. Irwin. 441 F Sunn 1247: U.S. D.C. of Michigan. (1985).
The several states have no greater power to restrain individual freedoms
protected by the First Amendment than does the Congress of the United
States. Wallace v. Jaffree. 105 S Ct 2479; 472 US 38. (1985). The First
Amendment has been found to include the right to religion and to raise one's
children as one sees fit. Loss of First Amendment Freedoms, for even minimal
periods of time, unquestionably constitutes irreparable injury. Though First
Amendment rights are not absolute, they may be curtailed only by interests of
vital importance, the burden of proving which rests on their government.
Elrod v. Bums. 96 S Ct 2673: 427 US 347. (1976).
Law and court procedures that are "fair on their faces" but administered "with
an evil eye or a heavy hand" was discriminatory and violates the Equal
Protection Clause of the Fourteenth Amendment. Yir.k Wn v. Honkins. 118
US 356. (1886). Therefore, any denial of parental rights based only on sex is
discriminatory. Even when blood relationships are strained, parents retain
vital interest in preventing irretrievable destruction of their family life; if
anything, persons faced with forced dissolution of their parental rights have
more critical need for procedural protections than do those resisting state
intervention into ongoing family affairs. Santoskv v. Kramer. 102 S Ct. 1888:
455 US 745. (1982). Parental rights may not be terminated without "clear
and convincing evidence. "SANTOSKY V. KRAMER. 102S..Ct.
1388 M982)

The liberty interest of the family encompasses an interest in retaining custody
of one's children and, thus, a state may not interfere with a parent's custodial
rights absent due process protections. Langton v.
Maloney. 527 F Sunn 538. D.C. Conn. (1981).
Parent's right to custody of child is a right encompassed within protection of this
amendment which may not be interfered with under guise of protecting public
interest by legislative action which is arbitrary or without reasonable relation
to some purpose within competency of state to affect.. Reynold v Bahv Fold.
Tnc.- 369 NE 2d 858: 68 Ill 2d 419. anneal dismissed 98 S Ct 1598. 435 US 963.
IL.C1977).Parent's interest in custody of their children is a liberty interest
which has received considerable constitutional protection; a parent who is
deprived of custody of my of children, even though temporarily, suffers
thereby grievous Joss and such loss deserves extensive due process
protection. Tn the Interest of Cooner. 621 P 2d 437: 5 Kansas Ann Div 2d 584.
(1980).
The Due Process Clause of the Fourteenth Amendment requires that
severance in the parent-child relationship caused by the state occur only
with rigorous protections for individual liberty interests at stake. Bell v. City

13.
Hence any ex-party hearing or lack of due process would not warrant
termination of parental rights. Father enjoys the right to associate with his
children which is guaranteed by this amendment (First) as incorporated in
Amendment 14, or which is embodied in the concept of "liberty" as that word
is used in the Due Process Clause of the 14th Amendment and Equal
Protection Clause of the 14th Amendment. Mahra v. Schmidt- 358 F Sunn
R20: DC. WT (19731
The United States Supreme Court noted that a parent's right to "the
companionship, care, custody and management of his orher children" is an
interest "far more precious" than any property right. May v. Anderson. 345
US 528. 533: 73 S Ct 840.843. (1952V A parent's right to care and
companionship of my children are so fundamental, as to be guaranteed
protection under the First, Ninth, and Fourteenth Amendments of the
United States Constitution. In re: ,T.S. and C..324 A 2d 90- sunra 129 N.T
Super, at
489. The Court stressed, "the parent-child relationship is an important
interest that undeniably Warrants deference and, absent a powerful
countervailing interest, protection." A parent's interest in the companionship,
care, custody and management of his or her children rises to a
Constitutionally secured.
right, given the centrality of family life as the focus for personal meaning and
responsibility. Stanley v. Illinois. 405 US 845.851-92 S Ct 1208. (1972V
Parent.’s rights have been ramonized as heinp- "essential to the orderly
nursuit. of hanniness by free man." Mever v. Nebraska. 2fi2 or 42fi US 390:
43 S Ct fi25. (1923V
Khan's and Musarat was once married This case is a dissolution of
marriage
The U.S. Supreme Court implied that "a (once) married father who is
separated or divorced from a mother and is no longer living with his child"
could not Constitutionally be treated differently from a currently married
father living with his child. Quilloin v. Walcott. 98 S Ct 549: 434 TTS 248.
255-58. (1978V
The U.S. Court of Appeals for the 9th Circuit (California) held that the
parent-child relationship is a constitutionally protectedliberty interest. (See;
Declaration of independence — life, liberty and the pursuit of happiness and
the 14th Amendment of the United States Constitution — No state can
deprive any person of life, liberty or property without due process of law nor
deny any person the equal protection of the laws.) Kelson v. Snringfield. 787
F 2d 651: US Ct Add 9th Cir. (1985V The parent-child relationship is a liberty
interest protected by the Due Process Clause of the 14th Amendment. Bell v.
City of Milwaukee. 74fi f2d 1205. 1242-45: US Ct. Ann 7th Cir WT. (1985V
No bond is more precious and none should be more zealously protected by
the law as the bond between parent and child." Carson v. Elrod. 411 F Sunn
845. 849: DC F, D. VA (197BV
A parent's right to the preservation of his relationship with his child derives
from the fact that the parent's achievement of a rich and rewarding life is
likely to depend significantly on his ability to participate in the rearing of his
children. A child's corresponding right to protection from interference in the
relationship derives from the psychic importance to him of being raised by a
loving, responsible, reliable adult. Franz
v. IJ.S.. 707 F 2d 582. 595-599: TTS Ct Ann (198.31 A parent's right to the
custody of his or her children is an element of "liberty"guaranteed by the 5th
Amendment and the 14th Amendment of the United States Constitution.
Matter of Gentry. 389 NW 2d 889. MT Ann Div (1983V
Reality of private biases and possible injury they might inflict were
impermissible considerations under the Equal Protection Clause of the 14th
Amendment. Palmore v. Sidot.i. 104 S Ct 1879: 488 US 429.

14.
Legislative classifications which distribute benefits and burdens on the basis
of gender carry the inherent risk of reinforcing stereotypes about the proper
place of women and their need for special protection; thus, even statutes
purportedly designed tocompensate for and ameliorate the effects of past
discrimination against women must be carefully tailored, the state cannot
be permitted to classify on the-, basis of sex. Orr v. Orr. 99 S Ct 1102:4340 ITS
268(19791.
The United States Supreme Court held that the "old notion" that "generally
it is the man's primary responsibility to provide a home and its essentials"
can no longer justify a statute that discriminates on the basis of gender. No
longer is the female destined solely for the home and the rearing of the family,
and only the male for the marketplace and the world of ideas. Stanton' v.
Stanton. 421 ITS 7. IQ: 95 S Ct 1373. 1376. (1975V
Judges must maintain a high standard of judicial performance with
particular emphasis upon conducting litigation with scrupulous fairness and
impartiality. 28USCA § 2411: Pfizerv. Lord. 456 F 2d 532: cert denied 92 S C,t.
2411: ITS Ct Ann MN. (1972).
t

State Judges, as well as federal, have the responsibility to respect and protect
persons from violations of federal constitutional rights. Gross v. State of
Illinois, 312 F 2d 257; (1963).
He Constitution also protects "the individual interest in avoiding disclosure
of personal matters." Federal Courts (and State Courts), under Griswold can
protect, under the "life, liberty and pursuit of happiness" phrase of the
Declaration of independence, the right of a man to enjoy the mutual care,
company, love and affection of his children, and this cannot be taken away from
him without due process of law. There is a family right to privacy which the
state cannot invade or it becomes actionable for civil rights damages.
Griswold v. Connecticut. 381 US 479. (19651.
The right of a parent not to be deprived of parental rights without a showing
of fitness, abandonment or substantial neglect is so fundamental and basic
as to rank among the rights contained in this 9th Amendment,
The rights of parents to parent-child relationships are recognized and upheld.
Fantonv v. Fantonv. 122 A 2d 593. (19561: Brennan v Brennan. 454 A 2d 901
(1982V
State's power to legislate, adjudicate and administer all aspects of family law,
including determinations of custodial; and visitation rights, is subject to
scrutiny by federal judiciary within reach of due process and/or equal
protection clauses of 14th Amendment.
3d 1118. the court affirmed that the TT.S.
State Court "have been abusing the domestic relations exception" and must
take jurisdiction when civil rights of parents have been violated by State &
IV-D agency not part of judicial system.
The United States Supreme Court has recognized that matters involving
marriage, procreation, and the parent-child relationship are among those
fundamental interests protected by the Constitution. The decision in Roe v.
Wndc. 410 US 113: 9.1 S Ct 705: 35 L Ed 2d 1V7. (1973V was described by the
Supreme Court as founded on the "Constitutional underpinning of ... a
recognition that the "liberty" protected by the Due Process Clause of the 14th
Amendment... The non-custodial divorced parent has no way to implement the
constitutionally protected right to maintain a parental relationship with his
child except through visitation.
To acknowledge the protected status of the relationship as the majority does,
and yet deny protection under,
Title 42 USC§ 1983, to visitation is to negate the right completely. Wise v.
Bravo, 666 F 2d 1328, (1981).

15.
Although court may acquire subject matter jurisdiction over children to
modify custody through UCCJA, it must show independent personal
jurisdiction [significant contacts] over out of state Father before it can order
him to pay child support. KULKO V. SUPERIOR COURT, 436 US 84, 98
S.Ct. 1690, 66 L.Ed.2d 132 [1978); noted in 1979 Detroit Coll. L.Rev. 159, 65 Va.
L.Rev.175 [1979); 1978 Wash. U.L.Q. 797.KuIka is based upon
INTERNATIONAL SHOE V. WASHINGTON, 326 US 310, 66 S.Ct. 154,
90 L.Ed 95 '[1945) and HANSON V. DENCKLA, 357 US 235, 78 S.Ct. 1228,
2 L.Ed.2d 1283 [1958)
Under state & federal law parents are presumed to be suitable and fit
parents. Parents, implicitly presumed to be suitable and fit, protect their
child(ren)'s welfare. Conclusion: Suitable and fit parents -act in their
child(ren)'s best interests.
The State of Nevada assumes an obligation, its "parents patriae" interest,
where the parent(s) are unsuitable (unfit, unwilling, or unable to "protect
their minor child(ren)'s welfare) and where no other suitable individual is
available. The State of Nevada must have a compelling legal reason to protect
the welfare of children where a parent is available for the care, custody, and
control of their minor child(ren). The claim of one
parent against another cannot be taken as sufficient reason to deny one
parent legal custody, physical custody and visitation, especially where there
is a major financial incentive to get child support.
The State of Nevada does not have a right to improperly intrude on a parentchild relationship without a compelling reason. However, where parent(s)
are legally presumed to act in their child(ren)'s best interests/welfare, the
State of Nevada has no compelling reason to intrude into the private realm
of the family or into the associational relationship between each parent and
child, (impheating the fourteenth, ninth, and first amendments.) Without a
compelling reason for state intervention, each autonomous parent-child
relationship remains intact. At this point, the State of Nevada has no legal
basis to intervene; that is, the State of Nevada has no compelling reason to
inject itself into either parent-child relationship. The welfare/best interests
of the child(ren) are protected. Reno v. Flores. 507 U.S. 292 U993Y And it is
also at this juncture that the State of Nevada maintains no legal basis to
interfere with pre-existing parental rights. The State of Nevada has no legal
basis to implicate any parental right where the child(ren)'s welfare is
implicitly protected.
Therefore, the welfare of the child(ren) has not been proven to be in
jeopardy.Both parents must retain their respective right to legal and
physical custody of their child(ren) barring proven unfitness, or danger to
the children.
However, let's go back to the current reality that exists in every divorce with
children. State authority asserting that the best interests of the child(ren) is
paramount to parental rights.
The State of Nevada assume that it maintains an obligation to protect the
welfare of its minor persons and therefore state intervention is rationally
related to the best interests of the child(ren).
State judicial decisions/court orders evidence the truth about what actually
occurs as a pattern and "practice in family courts throughout the nation.
Citation here for requirement that even when "parent is shown to be unfit in
some way the state may only interfere in the least possible way .The recurring
pattern of acting in the child(ren)'s best interests occurs by intentionally
ignoring parental rights. In fact, today Nevada parents lose custody of their
children simply by one person saying the word "fear" to a judge to take
advantage of domestic violence laws and restraining orders. This is clearly
Unconstitutional and has created a situation where there are huge financial
incentives for both the parent and the state to force one parent out of the
lives of the children. Statistics show that about 40% ofmothers do not value
the contribution of fathers in the upbringing of the children.

16.
This pattern and practice invert the supremacy clause ('Art, VT of the IT S
Constitution) by upholding state law (allegedly protecting children's
interests) over federal law, i.e., compliance with U.S. Constitution, where a
federal right (the fundamental hberty right to custody) is implicated.
The State of Nevada believes that the least intrusive means, founded in the
child(ren)'s best interests, is to physically remove one legally-suitable, but
arbitrarily-denied parent from substantive contact with his or her child(ren).
The State of Nevada expressly condones that what is "best" for child(ren) is
to minimize their relationship with the "non- custodial” parent. However, it
has been shown by many scientific studies over the life of children of divorce
that stability of a single home is far less important than having exposure toboth parents. Dr. Warren Farrell has concluded that in almost all cases that
equal time with both parents is far superior for children. It seems clear that
Nevada is actually doing what is in the worst interests of children in most
cases in State Court family division.
The current system has become driven by money of one parent for child
support, which greatly exceeds the actual cost of raising a child. It is also
clear that many parents wish to inflict pain on their ex-spouse by denying
the child(ren) access to the other parent. Given the $140 million in federal
annual child support enforcement monies the state also now has a conflict of
interest.
Upon designation, custodial and non-custodial parents are no longer similarly
situated. Noncustodial is an assignment that carried with it a seemingly
automatic loss of fundamental constitutional right to parent your children in
favor of the custodial parent. It carries with its financial penalties which have
been almost arbitrarily created and not shown to be valid ‘and where the other
parent is not required to contribute an equal amount, or for that matter any
amount. Non- custodial also carries with it the stigma that this person is
somehow a lesser parent and to make it impossible to have consistency or even
a rational basis in most cases where "both parents are fit.
The State of Nevada legislature provides a statutory entitlement for non­
custodial parents to "visit" with their child and this token stipend is the State of
Nevada least intrusive method of encouraging a healthy parent-child
relationship and maximizing quality familial involvement!
When a state court implicates (infringes, denies, deprives) a parental right
(temporarily or permanently), the State of Nevadaabsolutely intrudes upon
the parent-child relationship by implicating each parent's fundamental
Hberty right to custody of their minor child(ren).
The very idea that the state could even make this evaluation and decision is
in fact absurd, as parenting is a complex and subjective process which is
completely dependent on the child and decisions that the parents make
about lifestyle, refigion, morals and many other factors. These decisions are
personal, subjective and only within the rights of the parent(s). It has also been
shown that the child(ren) are easily a Timenated from one parent by
spending so much more time with the other parent. This is clearly
irreparably damaging to both the children
and the alienated parent. Conclusion: State law impermissibly intrudes upon
and imphcates fundamental parental rights.
The only way the State of Nevada can rebut the presumption that fit parents
are legally presumed to protect their child(ren)'s best interests is with a
"compelling" reason. A compelling reason requires the State of Nevada to step
in (intervene) where the welfare of its minor citizens is in jeopardy. If the
State of Nevada does step in, then it is at this point that state rights intersect
with federal rights
[and federal rights
require
mandatory
federal/constitutional protections]. And pursuant to Article VI of the U.S.
Constitution, the supremacy clause requires that "the judges in every state shall
be bound (by the Constitution and the laws of the United States)."
Either parent can sue for interference with parental rights.

17.
STRODE V. GLEASON. 510 P.2d 250 f19731: Prosser: HANDMANIIAL OF
THE LAW OF TORTS rWest Pnhl 19551 nage B82:
•• ✓>.

CARRIER! V. RUSH. 419 P.2d 132 ri9fiffl SWEARTNOEN V. VTK. 322 P.2H
87fi r19581 LANKFORD V. TOMBART. 213 P.2d 827. 19 ART. 2d 482 09501:
7 F.L.R. 2071 RESTATEMENT OF TORTS scrtinn 700A MARSHALL V
WILSON 818 SW 2d 93254
Federal Rights:
Parental
rights
are
fundamental
rights
protected
under
federal/constitutional law. The USSC
plurality decision in Trnxel v. Qranville. 530 U.S. 57 (20001 evinces that
all nine justices agree that narental rights are fundamental rights.
Fundamental rights are possessed by the individual, not the married couple.
Fundamental rights are also called substantive rights or natural rights. Any
contract, including marriage must have "consideration" to be enforceable. In
divorce the contract between wife and husband is being
broken and the courts may-need to mediate the division of assets, but children
are not assets and the state cannot interfere by allocating the children
without a high standard of proof that one parent is unfit. Therefore, the only
truly constitutional solution for the parents, and in fact now also proven best
for children scientifically, is an equal amount of time spent with both
parents.
The creation of artificial (lawyer or government created) financial incentives
for parents to fight for custody is deeply damagingto children and family
bonds and to society in general. Not only are both parental relationships hurt
but the children are also clearly hurt by the lack of relationship and model of
behaviour for the children. In fact, it is clear that this will create a repeating
cycle, as children raised in sole- custody homes are 93% more likely to divorce
later in life.
u
Invidious Gender Discrimination:
Invidious gender discrimination is needed for conspiracy actions under the
first clause of 42 IJ.S.C. Sec. 1985(3~). Approximately85% to 90%
custody decisions are sole maternal custody. This is Gender Bias in
PRACTICE. Such discrimination is not legal or in the best interest of
children. A child has an equal right to be raised by the Father, and must be
awarded to the Father if he is the better parent, or Mother is not interested.
STANLEY V TT.T.TNOTS. 405 TTS 845 r19721
Segregation in courtrooms is unlawful and may not be enforced through
contempt citations for disobedience or through other means. Treatment of
parties to or witnesses in judicial actions based on their race is
impermissible. Jail inmates have a rightnot to be segregated by race unless
there is some overriding necessity arising out of the process of keeping order.
The US Supreme Court asserted in the now famous "VMI" case. United
States v. Virginia. 116 S. Ct. 2264 (19961. that gender- based matters at both
the state and federal level, must meet a level of "heightened scrutiny" and
without solidly compelling state interests are unacceptable. In the following
excerpt, all references to the female gender have been replaced with the male
gender. And since this is a decision with its locus in gender-equality, this
replacement is as valid as the original language or the "VMI" decision is utter
hypocrisy.
Opinion held; Neither federal nor state government acts compatibly with
equal protection when a law or official policy denies to [men or fathers],
simply because they are [men or fathers], full citizenship stature-equal
opportunity to aspire, achieve, participate in and contribute to society based
on their individual talents and capacities. To meet the burden of
justification, aState must show "at least that the [challenged] classification
serves 'important governmental objectives and that the discriminatory
means employed' are 'substantially related to the achievement of those
objectives.'"
Benign justifications proffered in defence of categorical exclusions, however,
must describe actual state purposes, not rationalizations for actions in fact

■ j

j.•

18.

*>*><f>*

differently grounded... Further, states must demonstrate an "exceedingly
persuasive justification" (United States v. Virginia at 2274-75. 22861 for why
such discrimination continues IN PRACTICE when the statutes are facially
neutral. Since "our Nation has had a long and unfortunate history of sex
discrimination," (Frontiero v. Richardson, 411 U.S. 677,684 (1973))
The practices in "family" law seize upon a group - men and fathers - who
have historically suffered discrimination in family relations, and rely on the
relics of this past discrimination under the tender year’s doctrine,
reclassified as "the best interests of the child," as a justification for heaping
on additional family destructive disadvantages (adapted and modified from
footnote 22,Frontiero, 411 U.S. 677, 688). There can be absolutely no doubt
that father absence is destructive to children, yet family courts, and family
lawyers perpetuate this cycle every day by the thousands across America.
Some "Of the matters that might call fitness into question would include;
false claims of domestic violence, false claims of child abuse, and false claims
of child sexual abuse which are OVERWHELMINGLY alleged in divorce
actions by mothers to destroythe father and seize all family assets as well as
the children; or, alternatively, VERIFIED claims of the foregoing- as opposed
to simply adjudicated claims without tangible evidence. There does not even
need to be a threat, tangible or otherwise, only the claim of fear...
The "co pellin_g state interest" in child custody matters finds its nexus
between the "best interests of the child" doctrine and strict scrutiny.
Infringing upon fundamental rights [constitutionally protected parental
rights] dictates that the state shows the infringement serves a "compelling
state interest" with no constitutionally satisfactory alternative to meet that
interest. Santosky v. Kramer, 455 US 745 (1982); and (from a quote at
766,767):
Santosky is clearly about the termination of parental rights, but the "standard
family court order" of being every other weekend visitor may be just as
traumatic and potentially even greater. In less than equal custody, a
parent's relationship with their child(ren) is forcibly ripped away from them
and then they are forced to pay for the destruction of their rights. The non­
custodial parent's regular influence in shaping the child's development is
virtually eradicated.
The Santosky Court also noted: Even whenblood relationships are strained,
parents retain vital interest in preventing irretrievable destruction of their
family life; if anything, persons faced with forced dissolution of their
parental rights have more critical need for procedural protections than do
those resisting state intervention into ongoing family affairs.
The Santosky Court explains the risks in terminating parental rights. Yet, in
reality, when one parent is relegated to a weekend visitor, their
constitutional rights in the "care, custody, management and companionship"
of their child(ren) have been substantially eliminated, and without question,
infringed upon. In law the clarity, singularity, and sharpness of absolutes
make for simple "yes" or "no" judgments. There is no argument, there is no
fight, and there is no money to be made by this for the "family" lawyers. Yet
ideas and principles of absolutes are anathema to a system of "rule by men"
who spout their hatred, with derisions and "scorn" for such ideas of
absolutes, branding them as "intolerance." The realm of "family" law is
generally opposed to any real standard that might have accountability and
has widely embraced the "best interests of the child”. Child Support
Collection:
The State's Income Based child support statutes impermissibly infringe the
Privacy Interest right under the 14th Amendment of the Federal
Constitution and his First Amendment rights which included all right to
decisions inside the home including child rearing decisions. Child "Support"
removes all rights of fatherhood for independent self-determination
protected by the U.S. Constitution. How much money a parent spends for
the care and maintenance of their child is a parenting decision and is a
constitutionally guaranteed right. The State government under Common and
Natural Law is not permitted to intrude upon this fundamental right without
proof of demonstrable harm to the child.

19.

4 ■ ■?'

■

-.V

Ironically, the State ' presumes" this authority to award custody of the
children to the custodial, parent under the guise that the mother is "the
better parent" (absent any proper hearing to so determine), but then turns
around and admits the custodial parent is incapable of caring for the
children without the fiscal transfer of wealth from the non-custodial parent.
Not only does the State take the Petitioner's property (his income) without
any proper demonstration of due process, but then openly enjoins the mother
to pursue fraud for her own fiscal gain.
Corrective or punitive child support can only be ordered by the State/Court
by showing a profound positive disqualification or some wrong-doing, which
"shocks the conscience" of the community, and invokes the doctrine of parents
patriae. Parents patriae may only be asserted "reluctantly", as a "last resort"
and to "save the child." The State has cogently, and knowingly, with
premeditation, removed all rights to individual self-determination in this
matter, which is a God-given, fundamental right as a Father.
The State mandates that a divorced parent must be forced to spend an egregious
percentage of their income on his or her children; but the State does not, and
cannot, mandate that a married parent, living in a "single family unit",
spend a percentage of his income for his child. More importantly, the
challenged "Statutes are enforced against the parent without the State ever
determining if any harm has befallen the children related to the parent's
spending for them. The State lacks the Constitutional authority to mandate
spending for a child based on income, rather than adhering to the law which
requires a child be supportedonly for the necessaries.
The State asserts that the Petitioner "must pay" a sum of money to support his
children, gives the money to the mother, but makes no equal assumption or
requirement of the mother to either spend that confiscated money on the
children, or to pay an equivalent sum herself on those children. Equal treatment
under the -law is wholly absent.
Alimony and wife's lawyers’ fees and child support are civil debts, not
enforceable by contempt procedures, since the Constitution did away with
debtor's prison. DAVIS V. BROUGHTON. 382 SW 2d 219. If, the state finds
it has the rights to the children of this marriage, based on the 'parents
patriae' doctrine of ownership, then the actual cost of the children should be
equally paid by both parties since the prenuptial agreement required both
parties to generate financial support. Whichever statute that provides
greater protection to the Respondent, prevails. These Nevada and federal
statutes guarantee protection from having "imputed income" orders.
Furthermore, these statutes
provide protection of his/her rights to be free from unlawful child support or
any kind of garnishment lean on wage.
That, child support is a civil matter and there is no probable cause to seek
or issue body attachment, bench warrant, or arrest inchild support matters
because it is a civil matter.
The use of such instruments (body attachment, bench warrants, arrests, etc.)
presumably is a method to "streamline" arresting people for child support
and circumventing the Fourth Amendment to the United States
Constitution, and is used as a debt-collecting tool using unlawful arrests and
imprisonment to collect a debt or perceived debt.
The arrest of non-custodial parents in which men make up significant majority
of the "arrestees", is "gender profiling", "gender biased discrimination" and a
"gender biased hate crime" in that it violates the Equal Protection Clause of
the Fourteenth Amendment. A man, pursuant to the Equal Protection Clauseof the Constitution of the United States, cannot be arrested in a civil matter,
as a woman is not. "Probable cause" to arrest requires a showing that both a
crime or an injury or damage to private property has accord, or is being
committed, and that the person sought to be arrested committed the offense,
U.S. Constitution, Amendment the Fourth.

20.
Therefore, seeking of body attachment, bench warrant, or arrest by the
Appellant, and/or issuing of the same by the court, in this civil case would be
against the law and the Constitution. Under
U.S. v. Rylander.
> .
Rylander ignorance of the order or the inability to comply with the [child
support] order, to pay, would be a complete defence to any contempt
sanction, violation of a court order or violation of litigant's rights.
If a person is arrested on less than probable cause, the United States
Supreme Court has long recognized that the aggrieved party has a cause of
action under 42 U.S.C. §1983 for violation of Fourth Amendment rights.
Pierson v. Rav. 38fi U.S. 547. 87 S.Ct. 1213 ("lflfi7Y Harlow v. Fitzgerald 457
U.S. 800.818
(there can be no objective reasonableness where officials violate clearly
established constitutional rights such as:
a.
b.
c.
d.

U.S. Constitution, Fourth Amendment (including Warrants
Clause),
U.S. Constitution, Fifth Amendment (Due Process and Equal
Protection),
U.S. Ninth Amendment (Rights to Privacy and Liberty),
U.S. Fourteenth Amendment (Due Process and Equal Protection).

The' Supreme Court ruled in Mallev v. Briggs. 475 T T.S. 335. 344 (198fi~). that the
mere fact that a Hearing Master or magistrate issues an arrest warrant does
not automatically insulate the officer from liability for an Unconstitutional
arrest. "Only where the warrant application is so lacking in indicia of probable
cause as to render official belief in its existence unreasonable...will the shield of
As can be ascertained, a body attachment is a debt-collecting tool using
unlawful arrests and unlawful imprisonment for debt to collect a debt. Hence,
it is illegal and Unconstitutional, hence,rendering the issuing authority of
such an order in violation of the law and the Constitution, stripping him of
his jurisdiction, and, therefore, his judicial immunity. Furthermore, it would
also, render the Plaintiff (and her attorney) liable to prosecution under
federal (and state) statutes. Per federal law, see Marhurv v. Madison, fi ITS.
137 (18031.
the state must provide remedy for each and every violation of a right.
Multiple rights have been taken by the state, for its enrichment, without
providing remedy but instead imposingpunishments.
The United States Supreme Court mandates that constitutional (strict)
scrutiny is the heightened level Constitutional Scrutiny of scrutiny
applicable to the implication of fundamental rights secured by the U.S.
Constitution. Gender discrimination in state custody determinations is not at
issue where a lesser standard of review (intermediate scrutiny) would be
applicable.
Substantive due process is defined as the procedural requirements due when a
fundamental right is implicated. Judges' refusal to consider evidence and
psychologist reports denies due process right to "meaningful hearing."
ARMSTRONG V. MANGO. 380 US 545.552: 85S.Ct.1187 H9651
Federal Courts can rule on federal claims [constitutional questions] involved
in state divorce cases and award money damages for federal torts or in
diversity of citizenship cases involving intentional infliction of emotional
distress by denial of parental rights, "visitation", as long as the Federal Court
is not asked to -modify custodial status. LLOYD V. LOEFFLER. 518 SUPP
720 [custodial Father won $95.000 against parental kid-nanning wifel:
FENSLAGE V. DAWKINS. 629 F.2d 1107
130.000 damages for parental
kidnappingl KAJTAZI V. KAJTAZI, 488 SUPP 15 f 19761: SPINDEL V.
SPINDEL. 283 SUPP. 797 U969): HOWARD V. KUNEN. USDC Mass CA
No,73

21.
3813 G. 12/3/73 runreportedl: SCHWAB V. HUTSON. USDC. S. Dist. Ml.
11/70 [unreportedl: LORBEER V. THOMPSON. USD Colorado
ri9811:DENMAN V. VENEY. DENMAN V. WERTZ: Right to iurv trial
in Contempt: BLOOM V. ILLINOIS. 88 S. Ct. 1477: DUNCAN V.
all constitutional protections: EX PARTE DAVIS. 344 SW 2d 925 f19761:
Excessive fine on Contempt: COOPER V. C. 375 NE 2d 925 flL 19781:
Payment of support tied to visitation: BARELA V. BARELA. 579 P.2d 1253
11978 NM1; CARPENTER V. CARPENTER. 220 Va.299 f19791: COOPERYCOOPER. 375 NE 2d 925 fill. 19781: FEUER V.
FEUER. 50 A.2d 772 TNY 19751: NEWTON V. NEWTON. 202 Va. 515 H9611:
PETERSON V. PETERSON. 530 P.2d 821 fUtah 19741: SORBELLO V.
COOK. 403 NY Sunn. 2d 434 T19781: Child Support: ANDERSON V.
ANDERSON. 503 SW 2d 124 119731: ONDRUSEK V. ONDRUSEK. 561 SW
2d 236. 237 11978: support paid bv Mother to custodial Father!: SMITH V.
SMITH. 626 P.2d 342 H9811: SILVIA V. SILVIA. 400 NE 2d 1330 H980
Mass.l
Fundamental, substantive, and/or natural rights are legally differentiated
from civil rights because civil rights are rights created under law. One could
clarify fundamental rights as pre-existing "inherent" rights and civil rights
as government-created rights. Where a federal right is implicated, the State
of Nevada must provide the accused a process that is constitutionally
compliant with the
U.S. Constitution and mandatory under federal law.Goldberg v. Kelly. 397
ITS. 254 0970!
addresses the importance of certain property rights where liberty rights are
deemed far more important than property rights).
The State of Nevada must provide an explicit process due the accused to
prove that the Defendant's children are being harmed. This set of procedures
is commonly known as due process of law.
Due process is a mandatory set of. Procedures required by the U.S.
Constitution entitling Persons whose fundamental rights are implicated to
consistent and fair treatment. Mandatory fair procedures include at a very
minimum:
a. Express notice of the accusation.
b. A-pre-deprivation hearing.
c. The right to confront witnesses.
d. An evidentiary standard that is constitutionally compliant.
e. And the least restrictive means to obtain a satisfactory
solution
Where a fundamental right is implicated, the State of Nevada must provide
expressly written mandatory due process, procedures and use the least
restrictive means of intrusion to achieve an optimal outcome. Neither parent
is provided with due process of law,
i.e., in some states there is no pre-deprivation hearing.Stanlev v. Illinois. 405
U S. fi45 (1972V
No statutory scheme contains a constitutionally compliant evidentiary
standard. "Clear and convincing" evidence (of parental
unsuitability) is the highest evidentiary standard in civil law that meets
constitutional scrutiny pursuant to Santnskv v. Kramer.455 IJ.S. 745 (19821).
Statutes expressly written which diminish parents' fundamental rights, are
not constitutionally compliant, and therefore do not meet strict scrutiny
under federal law. Conclusion: Where both parents' rights are diminished
under state law, there is no set of circumstances that a constitutional
outcome can ever be achieved.
Substantive equal protection: similarly, situated parents must be treated
similarly (fundamental rights strand of equal protection under the fourteenth
amendment.) State implication of a fundamental right resulting in the
arbitrary classification of parents into suspect classes (non- custodial and
custodial) is subject to constitutional review. Whenever government action
seriously burdens fundamental rights and interests, heightened scrutiny of
the procedures is warranted.

22.

y^iVfr, • v>-

Where a state law impinges upon a fundamental right secured by the U.S.
Constitution it is presumptively unconstitutional. Harris v. McRae. 448 U.S.
297.('.1880'): Zahlocki.v. Redhail. 434.
Conclusion: where a statutory classification significantly interferes with
the exercise of a fundamental right, constitutional scrutiny of state
procedures is required.
Tinder the Snnrema U.S. 874 119781 cv Clause annears in Article VT of the
Constitution of the United States, everyone must follow federal law in the face
of conflicting state law. It has long been established that "a state statute is void
to the extent that it actually conflicts with a valid federal statute" and that
a conflict will be found either where compliance with both federal and state
law is impossible or where the state law stands as an obstacle to the
accomplishment and execution of the full purposes and objectives of
Congress.
Similarly, we have held that "otherwise valid state laws or court orders
cannot stand in the way of a federal court's remedial scheme if the action is
essential to enforce the scheme.”
Stone v. City and County of San Francisco. 9fi8 F.2d 850.882.
"Fundamental Rights do not hang by a tenuous thread of a layman’s
knowledge of the niceties of law. It is sufficient if it appears that he is
attempting to assert his constitutional privilege. The plea, rather than the
form in which it is asserted ..."
U.S. v St. Pierre. Sunra. 128 F 2d
"The law will protect an individual who, in the prosecution of a right does
everything, which the law requires him to do, hut fail to obtain his right by
the misconduct or neglect of a public officer."
Uvle v Arkansas. 9 Howe. 814. 13 L. Ed. 153."Where rights are secured by
the Constitution are involved, there can be no rule-making or legislation
which would abrogate them.
Miranda v. Arizona. 380 IIS 42fi (19661.
Justice Souter) We have long recognized that a parent's interests in the
nurture, upbringing, companionship, care, and custody of children are
generally protected by the Due Process Clause of the Fourteenth
Amendment.
See, e.g.. Mever v. Nebraska. 262 U.S. 390.399.401 (192.11: Pierce v. Society of
Sisters. 2fi8 U.S. 510.585 (19251: Stanley Illinois 408 TT S 845.851 119721:
408 U.S. 205.232 (19721: Qnilloin v. Walcott. 484 U.S. 248 255 (19781:
Parham v. J. R... 442 U.S.
584.
802 (19791: Santoskv v. Kramer. 455 U.S. 745. 753 U9821:
Washington v. Glucksherg. 521 U.S. 702. 720 (19971.
As we first acknowledged in Meyer, the right of parents to "bring up
children,"
262 U.S.. at 399. and "to control the education of their own" is protected hv
the Constitution, id., at 401. See also Glucksherg sunra. at, 761.
Justice Souter then opens the very next paragraph indicating the
constitutionality of parental rights are a "settled principle". In fact, it is a
well-established principle of constitutional law that custody of one's minor
children is a fundamental right.
Santoskv v. Kramer. 455 U.S. 745 (19821. Stanley v. Illinois. 405 U S. 645
(19721.
Without dispute the Troxel case is UNANIMOUS in its establishment that
parental rights are Constitutionally Protected Rights. Even the dissenting
judges, not agreeing with the remedy, recognized that parental rights are

23.
constitutional Rights. From the dissents in Troxel: a. (Justice Scalia) ... [A]
right of,parents to direct the upbringing of their children is among the
"unalienable Rights" with which the Declaration of independence proclaims
"all Men ... are endowed by their Creator." ... [T]hat right is also among the '•
"other [r] [rights] retained by the people" which the Ninth Amendment says
the Constitution's enumeration of rights "shall not be construed to deny or
disparage. (Justice Kennedy) I acknowledge,
... visitation cases may arise where [considering appropriate protection by
the state] the best interests of the child standard would give insufficient
protection to the parent’s constitutional right to raise the child without
undue intervention by the state...
[T]here is a beginning point that commands general, perhaps unanimous,
agreement in our separate opinions: As our case law has developed, the
[parent] has a constitutional right to determine, without undue interference by
the state, how best to raise, nurture, and educate the child. The parental right
stems from the liberty protected by the Due Process Clause of the Fourteenth
Amendment.
See, b.p.. Mevar v. Nebraska, 2fi2 TJ.S. 390.399.401 (19231: Pierce v. Society
of Sisters. 2fi8 TI.S. S10. 534-535 (19251:
Prince v. Massachusetts. 321 TJ.S. 158. Ififi (19441: Stanley v. Illinois 40R
IT S. R45. fi.R1-fifi2
C1972V Wisconsin v. Yoder. 40fi IT S. 205. 232-233 (19721: Santnsfcv v
Kramer. 455 TJ.S. 745. 753-754(1982).
Implications for recognizing the fundamental constitutional rights that ALL
parents possess, not only mothers, but fathers too, demands that the
deprivation of "the fundamental right of parents to make decisions
concerning the care, custody, and control" of their children constitutes a
significant interference with," (citations omitted) the exercise of a
fundamental constitutional right. Deprivation of fundamental liberty rights
"for even minimal periods of time, unquestionably constitutes irreparable
injury."
Elrod v. Burns. 9fi S.Ct. 2fi73: 427 TI.S. 347. 373 (197BV (Note Justice
Kennedy's Troxel remarks on page 2 about narental rights
This legislative body has a burden to society to weigh the studies and
information demonstrating the devastating effects of father absence on
children (a matter worthy of judicial notice) and then consider, as noted above,
the ramifications of effectively removing fathers from their children. After all,
there is now so much data and information about father absence that in
custody matters, continued maternal preferences rise to the Due Process
legal bar. The "[r]reality of private biases and possible injury they might
inflict [are] impermissible considerations under the Equal Protection Clause
of the,

Certainly, worth noting in Troxel, are Justices Souter and Thomas
concurring commentary. They implicate a potential willingness to address,
adjudicate, and possibly clarify the "free-ranging best- interests-of-the-child
standard" (Souter's characterization of this "standard"). Also, particularly
worth.
Noting, both Justices Scalia and Kennedy clearly recognized the
constitutional protections of parental rights. Though they do not agree it
appears Justice Scalia noted that part of the problem is the indeterminacy
of "standards" in custody cases suggesting that many definitions, such as parent
would have to be crafted and he would "throw it back to the legislature" to
define standards and terms. Herein implicating the "standard" is a problem.
Further, in Justice Kennedy's dissent, he elaborated that if upon remand or
reconsideration of the Troxel case, if there were still problems with the
decision regarding parental rights, consideration of that and other issues at
the US Supreme Court might be warranted, then went on to state: These

24.
[issues] include ... the protection the Constitution gives parents against
state-ordered visitation but also the extent to which federal rules for facial
challenges to statutes control in state courts. These matters, however, should
await some further case. It must be recognized, of course, that a domestic
relation proceeding in and of itself can constitute state intervention that is so
disruptive of the parent- child relationship that the constitutional right of a
[parent] to make certain basic determinations for the child's welfare becomes
implicated. The -best interests of the child standard has at times been criticized
as indeterminate, leading to unpredictable results. See, e.g., American Law
Institute, Principles of the Law of Family Dissolution 2, and n.
{Tentative Draft No. 3. Mar. 20. 19981. More specific guidance should await
a case in which a State's highest court has considered all of the facts in the
course of elaborating the protection afforded to parents by the laws of the
State and by the Constitution itself.
Parental Rights must be afforded "strict scrutiny" or a heightened scrutiny
so stringent as to be utterly indistinguishable from 'strict scrutiny".
The Fourteenth Amendment prohibits the state from depriving any person
of "life, liberty, or property without due process of law." The Court has long
recognized that the Due Process Clause "guarantees more than fair process."
Washington v. Grlucksherg. 521 TJ.S. 702. 719 (19971- It also includes a
substantive component that "provides heightened protection against
government interference with certain fundamental rights and liberty
interests."
Id., at 720: see also Reno v. Flores. 507 IT S. 292. 501-302 (1993V
Any denial of Due Process must be tested by the "totality of the facts"
because a lack of Due Process may "constitute a denial of fundamental
fairness, shocking to the universal sense of justice...”
Hogan. 378IJ.S. 1.2fi (19641 (piloting from Betts v. Bradv. 316 TJ.S. 455. 461462(19421
where it was noted that any violation of any of the first Nine Amendments
to the Constitution could also constitute a violation of Due Process). "[T]he
court must be vigilant to scrutinize the attendant facts with an eye to detect
and a hand to prevent violations of the Constitution by circuitous and
indirect methods.
Constitutional provisions for the security of person and property are to be
liberally construed, and 'it is the duty of courts to be watchful for the
constitutional rights of the Person, and against any stealthy encroachments
thereon.'
(as cited from Byars v.U.S., 273 US 28, 32). Boyd v. United States, 116 U.S.
616,635, 6 S. Ct. 524,535 (29 L. Ed. 746); Gouled v. United
States, 255 U.S. 304, 41 S. Ct. 261, supra."
It is further established that any law impinging on an individual's
fundamental rights is subject to strict scrutiny (San Antonin School District
v. Rodriguez. 411 U.S. 1 (19731.
"In order to withstand strict scrutiny, the law must advance a compelling state
interest by the least restrictive means available. Bernal V. Fainter. 467 U.S.
216(19841.
And by fiat, any judge interpreting, presiding, or sitting in judgment of any
custody case under the law must apply this same standard. Justice Stevens in
Troxel comments on the appropriate standard of review stating:
The opinions of the plurality, Justice Kennedy, and Justice Souter recognize
such a [parental constitutional] right, but curiously none of them articulates
the appropriate standard of review. I would apply strict scrutiny to
infringements of fundamental rights."

26.
v. Kaitazi. 488 F. Sunn. 15 (E.D.N.Y. 19781 Ruffalo v. United States. 590 F.
Sunn. 70fi (W.D. Mo.19841 E. Ruffalo v. Civiletti- 539 F. Sunn. 949 (WD.
Mn. 19821 F. Wisp v. Bravo, fififi F. 2H 1 328 (T Oth Cir. 1 9821G.Hall v. HallStradlev. Denver (Colo. Dist. Ct.l No. 84-CV-2865. 11/2B/88 las reported in
Fam. L.Ren. (BNA1. January fi. 1987. Vnl. 13. No. 91
Child Snnnort Hearing Has No Jurisdiction over a Man.
Child Support courts refuse to disclose the nature of the proceedings.
SECTION 8-CHTIX) SUPPORT ENFORCEMENT PROGR.AMSee Section 8 naae 20:
The Federal regulations also contain additional requirements related to the
expedited process. Proceedings conducted pursuant to either the expedited
judicial or expedited administrative process must be presided
over hv an individual who is not, a indue of the court. Orders established by
expedited process must have the same force and effect under State law as
orders established by full judicial process, although either process may
provide that a judge first ratify the order. Within these broad limitations,
each State is free to design an expedited process that is best suited to its
administrative needs and legal traditions.
The Collection Orders by Coram non judice: in presence of a person not a
judge. When a suit is brought and determined in a court which has no
jurisdiction in the matter, then it is said to be Coram non judice, and the
judgment is void Separation of powers.
The separation of powers issue raised by the advent of administrative
processes is whether the legislature can delegate a traditionally judicial area
to the Executive branch of Government. The answer depends, in large part,
on State Constitutional law. Generally, State legislatures have broad
authority to
and responsibilities of persons and to
establish processes for enforcing those responsibilities. PRWORA did not
mandate the administrative establishment of child support orders, leaving
the decision as to whether to remove this function from the Judicial branch
and place it with the Executive branch up to the States.
The administrative child support process created by its legislature to be a
violation of the separation of powers administrative process included
procedures for uncontested and contested cases. In uncontested cases, the
agency prepared a proposed support order for the parties' signature and the
administrative law person's ratification, either party contested the proposed
order, the case moved into the contested process.
In the contested process, the case was presented by a child support officer
(CSO) who was not an attorney. The administrative law person (ALJ) had
judicial powers, including the ability to modify judicial child support orders.
While the AU could not preside over contested paternity and contempt
proceedings, he or she could grant stipulated contempt orders and
uncontested paternity orders. While recognizing the importance of
streamlining child support mechanisms, the administrative structure
violated separation of powers for three reasons. First, the administrative
process infringed on the district court's jurisdiction in contravention to the
Nevada Constitution. Second, ALJ jurisdiction was not inferior to the
district court's jurisdiction, as mandated by the Nevada Constitution. Third,
the administrative process empowered non-- attorneys to engage in the
practice of law, infringing on the court's exclusive power to supervise the
practice of law.
[There is No case, crime or cause of action or contempt it’s just pure fraud by
the State and County.]
The foundation for the court's jurisdiction is the purpose of government
itself: "All political power is inherent in the people, and governments derive
their just powers from the consent of the governed, and are established to
protect and maintain individual rights."
This is why to have a case or cause of action; a plaintiff, in this case "STATE
OF NEVADA DOR", must plead the violation of its own legal right:

27.
the duty of the court, as of every judicial tribunal, is limited to determining
rights of persons or of property, which are actually controverted in the
particular case before it."
Tvler v. Judges of the Court of Registration. 179 ITS. 405. 21 S (It. 206.208.
The basic elements of a case or cause of action is the violation of a legal right
and loss or harm. The alleged plaintiff, "STATE OF NEVADA DOR", a legal
fiction at best, ostensibly acting through " State Prosecutor" has not pied any
violation of a legal right or harm, the allegation is of a violation of a statute.
Legally there is no cause of action:
"A Cause of action is some particular legal right of plaintiff against
defendant, together with some definite violation thereof which occasions
loss or damage."
Lnckie v. McCall Manufacturing Co.. 152 So.2d 311, 314 "Soowal v.
Marden. 452 So.2d 625.626. This includes proceedings like these allegedly
criminal in nature:
"Causation consists of two distinct sub elements. As legal scholars have
recognized, before a defendant can be convicted of a crime
that includes an element of causation, the State must prove beyond a
reasonable doubt that the defendant's conduct was (1) the "cause in fact" and
(2) the "legal cause" (often called "proximate cause") of the relevant harm...In
order to establish that a defendant's conduct was the "cause in fact" of a
particular harm, the State usually must demonstrate that "but for" the
defendant's conduct, the harm would not have occurred."
Evarslv v. State. 748 Sn.2d 963. 966-967 (Fla. 19991.
"It is a fundamental principle of law that no person be adjudged guilty of a
crime until the state has shown that a crime has been committed. The state
therefore must show that a harm has been suffered of the type
contemplated by the charges (for example, a death in the case of a murder
charge or a loss of property in the case of a theft charge), and that such harm
was incurred due to the criminal agency of another. Thus, it is sufficient if
the elements of the underlying crime are proven rather than those of the
particular degree or variation of that crime which may be charged.
“State v. Allen. 335 So. 2d 823.825 <T?la. 1976V
Even if the absurd claim is made harm is not a necessary element of a
real crime, the complaint is still fatally flawed as there is no accusation
alleged defendant violated any one's legal rights. It is actually alleged that
the alleged defendant violated a statute of the "STATE OF NEVADA DOR".
If there were a true adversary against alleged defendant, it would be
laughable to even try to discuss causation because defendant is not accused
of causing anything, real or imagined.
No corpus delecti. The corpus delecti is the "body of the crime" itself.
Virtually every American jurisdiction agrees it's an absolutely essential
element of any crime and is consistent with the stated purpose of American
governments.:
"Corpus delecti is usually proven by following two elements: injury or loss,
and someone's criminal act as cause thereof...
" State v. Smith. 801 P.2d 975. 115 Wash.2d 775.
""Corpus delecti" consists of injury nr loss and someone's criminal act
which caused it." State v. Esninoza. 774 P.2d 1177. 1182. 112 Wash.2d
819.
the body of the crime itself - i.e.. the fact of injury, loss or harm, and the
existence of a criminal agency as its cause." People v. Sapp,
73 P.3d 433,467 (Cal. 2003) [quoting People v. Alvarez. (20021 27 Cal.4th
1161. 1168-1169. 119
Cal.Rntr.2d 903. 46 P 3d 372 1 CCalifl

’ »

:

29.
"The Constitution and Laws of the United States of America which shall be
made in Pursuance thereof; and all Treaties made; or which shall be made,
under the Authority of the United States, of America shall be the Supreme
Law of the Land; and the Judges in every State shall be bound thereby, any
Thing in the Constitution or Laws of Any State to the Contrary
notwithstanding." United States Constitution Article VI Clause 2.
"All political power is inherent in the people, and governments derive their
just powers from the consent of the “governed, and are established to
_protect and maintain individual rights."
"The Constitution of the United States of America is the supreme law of
the land." "No person shall be deprived of life, liberty, or property, without
due process of law."
"By due process; by a law that gives a man an opportunity to be heard before
depriving him of his life, liberty, or property; by law which hears before it
condemns; which proceeds upon inquiry, and renders judgment only after
trial." Law of the Land, Ballantine’s Law Dictionary 3rd Ed.
In accordance with the United States of America Constitution, and
Constitution of the state of Nevada a man may not be deprived of life, liberty
or property without due process of law, of which many Judges are ignoring,
despite the law being clear they cannot ignore it, but are in fact bound

thereby.
HALF, v HENKEL 201 U.S. 43 at 89 (1906~> Hale v Henkel

was decided by the United States Supreme Court in 1906. The opinion of
the court states: "The "individual" may stand upon "his,
Constitutional Rights" as a CITIZEN. He is entitled to carry on his "private"
business in his own way. "His power to contract is unlimited." He owes no
duty to the State or to his neighbours to divulge his business, or to open his
doors to an investigation, so far as it may tend to incriminate him. He owes
no duty to the State, since he receives nothing
there from, beyond the protection of his life and property. "His rights" are
such as "existed" by the Law of the Land (Common Law) "long antecedent" to
the organization of the State", and can only be taken from him by "due
process of law", and "in accordance with the Constitution." "He owes
nothing" to the public so long as he does not trespass upon their rights."
HALE V. HENKEL 201 IJ.S. 43 at 89 (19061. Hale v Henkel

is binding on all the courts of the United States of America until another
Supreme Court case says it isn't. No other Supreme Court case has ever
overturned
Hale v. Henkel. None of the various issues of Hale v. Henkel has ever been
overruled since 1906. Hale v. Henkel has been cited bv the Federal and State
Annellate Court systems over 1.600 times! Tn nearly every instance when a
case is cited, it has an imnact on precedent authority of the cited case.
Compared with other previously decided Supreme Court cases, no other case
has surpassed Hale
v. Henkel in the number of times it has been cited by the courts. "The rights
of the individuals are restricted only to the extent that they have been
voluntarily surrendered by the citizenship to the agencies of government."
"Any judge [or officer of the government] who does not comply with his oath
to the Constitution of the United States wars against that Constitution and
engages in acts in violation of the supreme law of the land. The judge is
engaged in acts of treason."
Cnonerv. Aaron. 358 IJ.S. 1. 78 S. Ct. 1401 U9581
"Jurisdiction over the, person of the defendant which can be acquired only
by service of process on the defendant in the state to which the court belongs
or by his voluntary submission to jurisdiction. “Jurisdiction in Personam,
Ballentine's Law Dictionary 3rd Ed.

. -- .

30.
For the accusation to be valid, the accused must be accorded due process.
Accuser must have complied with law, procedure and form in bringing the
charge. This includes court-determined probable cause, summons and notice
procedure.
If lawful process may be abrogated in placing a citizen in jeopardy, then any
means may be utilized to deprive a man of his freedom, and all dissent may
be stifled by utilization of defective process.
"The essential elements of due process are notice and an opportunity to
defend".Simon v. Craft.. 182 US 427.
Issuing a warrant and taking a man to jail without establishing personal
jurisdiction by due process procedure is not only a constitutional law
violation, civil tort, but is equal to him being punished being deprived of his
liberty before having his day in court. Due process is a mandatory and
necessary element of every action, criminal and civil, that has been
established to protect and maintain the individual rights of the alleged
defendant against the arbitrary deprivation of his life, liberty, and/or
property. Denial of due process and equal protections of the law is a
jurisdictional defect of constitutional magnitude and the court lacks
jurisdiction. “A defect, whether of omission or commission, in process,
pleading,
parties, or procedure which deprives the court jurisdiction." Jurisdictional
Defect, Ballantine’s Law Dictionary 3rd Ed.
"No man in this country is so high that he is above the law. No officer of the
law may set that law at defiance with impunity. All the officers of the
government, from the highest to the lowest, are creatures of the law and are
bound to obey it. it is the only supreme power in our system of government,
and every, man who, by accepting office participates in its functions, is only
the more strongly bound to submit to that supremacy, and to observe the
limitations it imposes on the exercise of the authority which it gives." IT.S. v.
Lee. 106 IJ.S. 196.220 1 S. Ct,. 240.2B1. 27 L. Ed. 171 (18821.
"No provision of the Constitution is designed to be without effect. Any Thing
that is in conflict is null and void of law." Marburv v. Madison. 5 TI.S. 137
08031.
"History is clear that the first ten Amendments to the Constitution were
adopted to secure certain common law rights ofthe people, against invasion
of the Federal Government."
Bell v. Hood. 71 F. Sunn. 81 3.81 fi (19471 IT.S.D.C. So. Dist,. CA.
Even if the absurd claim is made that due process was followed, or that due
process is not required in a criminal case, or a particular State, the court
still lacks jurisdiction. The plaintiff, "STATE OF NEVADA DOR", a political
fiction at best, lacks standing.
A plaintiff is "...Any natural or artificial person who institutes and action
in his own name." Plaintiff, Ballentine's Law Dictionary 3rd Ed.
The information document is fatally flawed for want of a plaintiff, case, crime
or cause of action. As can be seen, "STATE OF NEVADA DOR", a fiction at best,
is named as "plaintiff, but, "prosecutor" is named as the one who "COMES
NOW" and "ACCUSES" alleged defendant of being IN the plaintiff and
violating a statute of the "STATE OF NEVADA", not the violation of a legal
right, loss or harm of his/her own or of the "STATE OF NEVADA".
Obviously neither the STATE OF NEVADA DOR or the "prosecutor" is
instituting an action in his own name, and there is no plaintiff. Without a
plaintiff there can be no case, crime, or cause of action and the court lacks
jurisdiction.
Even if the absurd claim is made that there is a plaintiff, the plaintiff,
"STATE OF NEVADA DOR" aka "prosecutor", still lacks standing.
"Standing represents a jurisdictional requirement which remains open to
review at all stages of the litigation." National Organization for Women. Inc.
v. Scheidler. 510 ITS 249.

31.
"The doctrine of standing prohibits a litigant ["STATE OF NEVADA
DOR"lfrom raising another's legal rights. Allen v. Wright. 4fi8 IIS 737. 750-

"If a plaintiff P’STATE OF NEVADA DOR"! lacks standing to bring a suit,
courts lack jurisdiction to consider it."

"Injury in fact element of standing is satisfied when a plaintiff ["STATE OF
NEVADA D0R"1 alleged the challenged action will cause a specific and
personal harm.
" Kucera v. State. Dent, of Transn.. 995 P.2d fi.3.
"Doctrine of standing prohibits the litigant ["STATE OF NEVADA DOR"!
from raising another's legal rights."
Haherman v. Washington Public Power Sunnlv System. 744 P.2H 1032.
Therefore, according to the doctrine of standing, the "STATE OF NEVADA
DOR", aka "prosecutors name", must allege the violation of its/his own legal
right, loss or harm, and is prohibited from raising another's right/s.Because
there is no corpus delecti, there is no crime. Yes, there is a so-called "crime"
alleged on paper, -, but-the allegation fails to meet every legal standard of
what a crime is. Also, because American governments are established for the
sole purpose of protecting rights, a true crime requires the violation of a legal
right. Alleged defendant is not accused of violating anyone's legal rights,
therefore, there is no crime/case or cause of action pied and the court does
not have jurisdiction.
The complaint is "unfit for adjudication". Because American courts are
adversary systems, the complaint is "unfit for adjudication":
"The (Supreme] Court has found unfit for adjudication any cause that "is
not in any real sense adversary," that "does not assume the 'honest and
actual antagonistic assertion of rights' to be adjudicated ... " Poe v. Tffiman.
3B7TT.S. 497.505 (19fi1Y
Even if the phrase corpus delecti is not used, there is no doubt this is not an
adversary proceeding as there are no allegations, I violated any legal rights
of plaintiff' [STATE OF NEVADA!".
No evidence of presence within State and laws applicable. There are no facts
pied to prove my presence within the plaintiff, "STATE OF NEVADA", and
the laws of the state are applicable to me. Such evidence is essential to prove
jurisdiction.
Mere geographic location is not evidence of presence within the alleged
plaintiff, ["STATE OF NEVADA1". It's impossible to prove my presence within
the alleged plaintiff beyond a reasonable doubt or a preponderance of
evidence.The phrase ["STATE OF NEVADA1" appears to be not much more
than a dba or pseudonym for lawyers and police officers.
As the laws of the state only apply within the state, there is no evidence
that I am in the plaintiff, ["STATE OF NEVADA!" and nothing alleged, the
law of the state applies to me
Title IV-D does not give rise to individual rights; it was not intended to benefit
individual children and custodial parents, but is simply a yardstick for the
Secretary to measure the system wide
performance of a State's Title IV-I) Program Blessing, supra. 520 IJ.S. at 343
117 S. fit, at 13fi1. 17 L. EH. 2d at fiS4

32.
CONCLUSION:
• ' ;-v,p

U.S. v. Throckmorton. 98 US 61 WHEREAS, officials and even judges have
no immunity See. Owen vs. City of independence. 100 S Ct. 1398: Maine vs.
Thiboutot. 100 S. Ct. 2502: and Hafer vs. Melo. 502
U.S. 21: officials and Judges are deemed to know the law and sworn to up hold
the law: officials and judges cannot claim to ant in good faith in willful
deprivation of law, they certainly cannot plead ignorance of the law, even the
Citizen cannot plead ignorance of the law, the courts have ruled there is no
such thing as ignorance of the law Cooper v. Aaron. 358 U.S. I. 78 S.Ct. 1401
(1958). "No state legislator or executive or judicial officer can war against the
Constitution without violating his undertaking to support it

The petition for a writ of certiorari shall be granted.
Respectfully Submitted by,
Marshall Abbas Khan (live life claim claimant’)
April 5, 2021,

All Rights Reserved by Petitioner Under UCC 1-308-7

•*>-. .**..■!*

